<html>
<title> - AVIATION SECURITY CHALLENGES: IS TSA READY FOR THE THREATS OF TODAY?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  AVIATION SECURITY CHALLENGES: IS TSA READY FOR THE THREATS OF TODAY?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2015

                               __________

                           Serial No. 114-30

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                             

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
97-919 PDF                   WASHINGTON: 2016                        

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="87e0f7e8c7e4f2f4f3efe2ebf7a9e4e8eaa9">[email&#160;protected]</a>  



        

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                                Witness

Mr. Peter V. Neffenger, Administrator, Transportation Security 
  Administration, U.S. Department Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article........................................................    21

                                Appendix

Questions From Hon. Scott Perry for Peter V. Neffenger...........    35
Questions From Ranking Member Bennie G. Thompson for Peter V. 
  Neffenger......................................................    37

 
  AVIATION SECURITY CHALLENGES: IS TSA READY FOR THE THREATS OF TODAY?

                              ----------                              


                        Wednesday, July 29, 2015

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Rogers, Perry, Katko, 
Carter, Walker, Ratcliffe, Donovan, Thompson, Jackson Lee, 
Keating, Vela, Watson Coleman, Rice, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    Committee is meeting today to provide Members with an 
opportunity to hear from the newly-confirmed Transportation 
Security Administrator Peter Neffenger on his plans for leading 
the TSA. We expect to explore a range of issues related to the 
operations of the TSA.
    I now recognize myself for an opening statement.
    Two weeks ago, a terrorist attack in America's heartland, 
inspired by a hateful ideology, killed 5 American soldiers on 
U.S. soil, just a day after we marked up the Countering Violent 
Extremism bill out of this committee.
    Fourteen years after 9/11 not only are we still under 
threat from Islamist terrorists, but they have gone on the 
defensive globally and expanded their footprint. Radicalization 
is on the rise and the war is being brought to our doorsteps at 
a terrifying speed.
    We have long known that our aviation sector is a crown 
jewel of terrorist targets. So as we stare down these real and 
growing threats, Congress and the American people need 
confidence in our defenses. In the past few months, TSA has 
given us concern rather than confidence. Terrorists have to be 
right only once, and we have to be right 100 percent of the 
time.
    As millions of travelers from all over the world pass 
through our Nation's airports, the American people must know 
and trust that the procedures and policies put in place make it 
safer.
    In June, we learned through leaked reports from the 
Department of Homeland Security's Office of Inspector General 
that TSA's passenger screening was wrong 96 percent of the 
time, and that 73 aviation workers have potential ties to 
terrorism. These findings shatter public confidence. A reported 
96 percent failure rate to detect explosives is completely 
unacceptable.
    Administrator Neffenger has an opportunity, I believe, to 
turn this ship around. As an admiral, I think he has that 
capability as well. In our discussions that we have had over 
the past few days, he has displayed candor and an open mind in 
his approach to this critical position.
    In my opinion, TSA needs to do three things in order to 
move forward to a new chapter. No. 1, restore public 
confidence. No. 2, enhance risk-based security. No. 3, better 
leverage the private sector.
    We have seen a large expansion of risk-based security 
initiatives since 2011, however, we still need to do more. 
TSA's PreCheck program has been in place for 4 years, however, 
currently only 4 percent of travelers are members of this 
program. TSA needs to increase its population so that it can 
focus its efforts on more thoroughly screening those passengers 
who are unknown and pose a higher risk.
    I would like to explore how TSA can better leverage the 
private sector. The private sector plays a critical role in 
securing our Nation's aviation system. TSA does not and cannot 
fulfill its mission alone. The private sector is a necessary 
partner that TSA needs to continue to rely on in order to 
successfully fulfill its mission.
    TSA and the Department need to look to the future and give 
the private sector a road map and a vision of what screening 
will look like 5, 10, and even 15 years from now. The admiral 
and I have had some very good discussions on that point.
    This can help companies developing technologies meet these 
needs. We cannot expect private companies to invest tens of 
millions of dollars if we cannot provide them with any 
certainty or vision on a return on their investment.
    Additionally, TSA needs to make necessary reforms in order 
to enhance the Screening Partnership Program. These 
partnerships allow airports to hire private screeners instead 
of Government employees. This program has been in place since 
2004 and, yet, TSA is still unable to do an accurate cost 
comparison that takes into account the full cost of a Federal 
employee compared to a private-sector employee doing the same 
job. This gap allows TSA to argue that private screeners do not 
save the taxpayer money although this is not a fair and 
accurate accounting assessment.
    This committee is dedicated to reforming TSA. We proved our 
commitment to this effort by passing four important pieces of 
legislation on the House floor just this Monday that will keep 
Americans safe.
    This legislation came out of this committee as a result of 
the recent TSA failures. Specifically, these bills will help 
strengthen and secure the PreCheck program, improve the vetting 
process for aviation employees, help keep our airport screening 
equipment better maintained, and implement better 
accountability policies at local airports for contractors.
    But the bottom line is this: The threat is evolving. But 
Americans are concerned that TSA is not keeping up with that 
threat.
    Administrator Neffenger, you have a tough job ahead of you 
to lead this agency but we have confidence in you, and we look 
forward to working with you in these joint efforts to reform 
TSA, and together today we are eager to hear from you about 
your plans for the future and your vision.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                             July 29, 2015
    Two weeks ago, a terrorist struck in America's heartland--inspired 
by a hateful ideology--and killed 5 American soldiers on U.S. soil. 
Fourteen years after 9/11, not only are we still under threat from 
Islamist terrorists, but they have gone on the offensive globally and 
expanded their footprint. Radicalism is on the rise, and the war is 
being brought to our doorsteps at terrifying speed.
    We have long known that our aviation sector is the crown jewel of 
terrorist targets, so as we stare down these real and growing threats, 
Congress and the American people need confidence in our defenses. In 
the past few months, TSA has given us concern rather than confidence. 
Terrorists have to be right only once, and we have to be right 100% of 
the time. As millions of travelers from all over the world pass through 
our Nation's airports, the American people must know and trust that the 
procedures and policies put in place make us safer.
    In June, we learned through leaked reports from the Department of 
Homeland Security's Office of Inspector General, that TSA's passenger 
screening was wrong 96% of the time, and that 73 aviation workers had 
potential ties to terrorism. These findings shatter public confidence. 
A reported 96% failure rate to detect explosives is completely 
unacceptable.
    Administrator Neffenger has an opportunity to right this ship. In 
our discussions, he has displayed candor, and an open mind in his 
approach to this critical position. In my opinion, TSA needs to do 
three things in order to move forward to a new chapter: (1) Restore 
public confidence, (2) enhance risk-based security; and (3) better 
leverage the private sector.
    We have seen a large expansion of risk-based security initiatives 
since 2011; however, we still need to do more. TSA's PreCheck program 
has been in place for 4 years, however, currently only 4% of travelers 
are members of this program. TSA needs to increase this population, so 
that it can focus its efforts on more thoroughly screening those 
passengers who are unknown and pose a bigger risk.
    I would like to explore how TSA can better leverage the private 
sector. The private sector plays a critically important role in 
securing our Nation's aviation system. TSA does not and cannot fulfill 
its mission alone. The private sector is a necessary partner that TSA 
needs to continue to rely on in order to successfully fulfill its 
mission.
    TSA and the Department need to look to the future and give the 
private sector a roadmap of what screening will look like 5, 10, and 15 
years from now. This can help companies developing technologies meet 
these needs. We cannot expect private companies to invest tens of 
millions of dollars, if we cannot provide them any certainty on a 
return on their investment.
    Additionally, TSA needs to make necessary reforms in order to 
enhance the Screening Partnership Program. These partnerships allow 
airports to hire private screeners instead of Government employees. 
This program has been in place since 2004, and yet TSA is still unable 
to do an accurate cost comparison that takes into account the full cost 
of a Federal employee compared to a private-sector employee doing the 
same job.
    This gap allows TSA to argue that private screeners do not save the 
taxpayer money, although this is not a fair and accurate accounting 
assessment. This committee is dedicated to reforming TSA. We proved our 
commitment to this effort by passing four important pieces of 
legislation on the House floor on Monday that will keep Americans safe.
    This legislation came out of this committee as a result of the 
recent TSA failures. Specifically, these bills will help strengthen and 
secure the PreCheck program, improve the vetting process for aviation 
employees, help keep our airport screening equipment better maintained 
and implement better accountability policies at local airports for 
contractors.
    The bottom line is this: The threat is evolving, but Americans are 
concerned that TSA is not keeping up. Administrator Neffenger, you have 
a tough job ahead of you to lead this agency. But we look forward to 
working with you to reform TSA--and today we are eager to hear about 
your plans to do exactly that.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding this hearing. I would also like to congratulate 
Administrator Neffenger on his appointment, and I look forward 
to working with him to advance the mission of TSA.
    Another thing is, you say, ``Welcome to the fish bowl.''
    [Laughter.]
    TSA was established by Congress in the wake of the 
September 11 attack. It has responsibility for protecting the 
Nation's surface and aviation transportation systems and 
ensuring the free movement of people and goods.
    Over the years in protecting aviation systems, TSA has used 
a number of methods to screen passengers. Some of the 
technological changes TSA has made, however, have cost 
taxpayers millions of dollars while failing to adequately 
address the threat to aviation security.
    Unfortunately, TSA is still having problems with its 
technology today. For example, last month, it was reported that 
auditors posing as passengers were able to smuggle mock 
explosives and banned weapons through checkpoints at various 
airports across the country.
    Earlier this spring, the inspector general released a 
report claiming that TSA does not properly manage the 
maintenance of its airport screening equipment. According to 
the I.G., TSA has not issued adequate policies to airports for 
carrying out maintenance responsibility.
    Administrator Neffenger, I want to challenge you to address 
these issues with the technologies used in the airport 
environment. As you approach this issue, consider both the 
current threat picture and the emerging threats. Keep in mind 
that there are small and minority businesses in this country 
with exceptional technologies that could be beneficial to TSA 
and improve efficiencies at the airport.
    I highlight that because we have gotten accustomed to using 
three or four vendors and every time we have come before this 
committee, somebody would say, well, they are the only someone 
with capacity to do what we need. My question is: Well, how 
hard have we looked and how cooperative have we been with other 
people who are in this arena? So I look forward to working with 
you on that.
    Former Administrator Pistole implemented a risk-based 
approach to passenger screening. However, both the Government 
Accountability Office and the Office of Inspector General have 
identified shortcomings with this approach, especially when it 
comes to granting passengers expedited screening through 
managed inclusion.
    Significant shortcomings that I have observed with managed 
inclusion include problems with the model used to identify 
passengers for this managed inclusion program and the 
usefulness of having behavior that takes an officer's implement 
the managed inclusion program.
    The reason I say that, too, Mr. Director, is we have been 
asking for whatever science that is available relative to 
behavior detection officers and how that falls into this 
layered system of protection and, unfortunately, we have yet to 
get that report back from a scientific standpoint.
    This past Monday, legislation introduced by Subcommittee 
Chairman Katko, Ranking Member Rice, and me directs TSA to 
limit expedited airport screening to participants of the 
PreCheck program and other known low-risk passengers. Our bill 
passed the House. Last week, three new measures were approved 
by the Transportation Security Subcommittee.
    As we consider the three deals, we know that there are some 
issues that remain for the full committee's consideration. For 
instance, significant concerns have been raised by a diverse 
group of labor stakeholders for the measure aimed to address 
alarming reports of multiple security breaches caused by 
employees exploiting security gaps and abusing the 
credentialing privileges. As we close these gaps, we must 
ensure that the men and women whose job is to protect the 
flying public are not unduly impacted.
    As TSA legislation works its way through the legislative 
process, we would welcome constructive engagement from TSA. 
Administrator Neffenger, again, not only do I look forward to 
hearing from you on how you plan to address these issues, but 
also I want to hear from you on how you plan to address the 
most valuable asset within TSA, which is its workforce.
    TSA is plagued with very low morale and an extremely high 
turnover rate. Employees cite low pay and barriers to 
advancement as some of their main issues. Additionally, the 
Federal Air Marshal Service has not had a class in nearly 4 
years. Again, I want to know your perspective on this and what 
steps you plan to take to improve employee morale and if you 
plan on employing more Federal air marshals.
    TSA plays a vital part in protecting America. We can work 
together to help solve its problems. I look forward to this 
committee working with you as the new administrator in a 
bipartisan fashion to help solve TSA's problems and to improve.
    With that, Mr. Chair, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 29, 2015
    TSA was established by Congress in the wake of the September 11 
attacks. It has responsibility for protecting the Nation's surface and 
aviation transportation systems, and ensuring the free movement of 
people and goods. Over the years, in protecting aviation systems, TSA 
has used a number of methods to screen passengers. Some of the 
technological changes TSA has made, however, have cost taxpayers 
millions of dollars while failing to adequately address the threat to 
aviation security.
    Unfortunately, TSA is still having problems with its technologies 
today. For example, last month, it was reported that auditors posing as 
passengers were able to smuggle mock explosives and banned weapons 
through checkpoints at various airports across the country. Earlier 
this spring, the Inspector General released a report claiming that TSA 
does not properly manage the maintenance of its airport screening 
equipment. According to the IG, TSA has not issued adequate policies to 
airports for carrying out maintenance responsibilities.
    Administrator Neffenger, I challenge you to address these issues 
with the technologies used in the airport environment. As you approach 
this issue, consider both the current threat picture and the emerging 
threats. Keep in mind that there are small and minority businesses in 
this country with exceptional technologies that could be beneficial to 
TSA and improve efficiencies at airports. Former Administrator Pistole 
implemented a risk-based approach to passenger screening.
    However, both the Government Accountability Office and the Office 
of Inspector General have identified shortcomings with this approach 
especially when it comes to granting passengers expedited screening 
through Managed Inclusion. Significant shortcomings include: Problems 
with the model used to identify passengers for the Managed Inclusion 
Program and the usefulness of having Behavior Detection Officers 
implement the Managed Inclusion Program.
    This past Monday, legislation introduced by Subcommittee Chairman 
Katko, Ranking Member Rice, and me directs TSA to limit expedited 
airport screening to participants of the PreCheck program and other 
known low-risk passengers. Our bill passed the House. Last week, three 
new measures were approved by the Transportation Security Subcommittee. 
As we consider the three bills, we know that there are some issues 
remaining for the full committee's consideration.
    For instance, significant concerns have been raised by a diverse 
group of labor stakeholders for the measure aimed to address the 
alarming reports of multiple security breaches caused by employees 
exploiting security gaps and abusing their credential privileges. As we 
close these gaps, we must ensure that the men and women whose job it is 
to protect the flying public are not unduly impacted. As TSA 
legislation works its way through the legislative process, we would 
welcome constructive engagement with TSA.
    Administrator Neffenger, not only do I look forward to hearing from 
you on how you plan to address these issues, but also I want to hear 
from you on how you plan to address TSA's most valuable asset--its 
workforce. TSA is plagued with very low morale and an extremely high 
turnover rate. Employees cite low pay and barriers to advancement as 
some of their main issues. Additionally, the Federal Air Marshal 
Service has not had a class in nearly 4 years. Administrator Neffenger, 
I want to know your perspective on this and what steps you plan on 
taking to improve employee morale and if you plan on employing more 
FAMS.
    TSA plays a vital part of protecting America. We can work together 
to help solve its problems. I look forward to this committee working 
with the new administrator in a bipartisan fashion to help TSA improve.

    Chairman McCaul. I thank the Ranking Member. Other Members 
are reminded that opening statements may be submitted for the 
record.
    [The statement of Hon. Jackson Lee follows:]
                  Statement of Hon. Sheila Jackson Lee
                             July 29, 2015
    Chairman McCaul and Ranking Member Thompson, I thank you both for 
the opportunity for the full committee to hear from the Department of 
Homeland Security's new Transportation Security Administrator Vice 
Admiral Peter V. Neffenger.
    As a senior member of the Homeland Security Committee and former 
Chair of the Subcommittee on Transportation Security, I am pleased to 
see that the position of TSA administrator has been filled by a person 
with the credentials and background of Vice Admiral Neffenger.
    Vice Admiral Neffenger, I thank and commend you for your decades of 
service to the Nation.
    On April 28, 2015, President Obama nominated Vice Admiral Peter V. 
Neffenger to be the sixth administrator of the TSA. On June 22, the 
Senate confirmed Administrator Neffenger to be the administrator of 
TSA.
    Vice Admiral Neffenger was sworn in on July 4, 2015, making him the 
agency's sixth administrator. Prior to being confirmed to serve as TSA 
administrator you served as U.S. Coast Guard's 29th vice commandant.
    During your time in the Nation's fifth armed service and premier 
maritime law enforcement agency, you were assigned to several 
operational and staff roles both domestically and internationally.
    This hearing is your first appearance before the committee since 
you were confirmed by the Senate.
    Recently, the Transportation Security Administration (TSA) has 
faced a number of issues, including detection failure rates, credential 
misuse, and dismal employee morale.
    This opportunity will allow Members to ask you questions about your 
priorities as TSA administrator, as well as the manner in which you 
intend to address pressing issues before the agency.
    The work of the TSA is a front line Department of Homeland Security 
and it is not easy--it can in fact be very dangerous.
    Like many of my colleagues, I recall the shooting incident at LAX 
last year that killed Gerardo Hernandez, who became the first TSA 
Officer killed in the line of duty; and the machete attack at the Louis 
Armstrong New Orleans International Airport earlier this year that 
resulted in injuries to Senior Transportation Security Officer Carol 
Richel.
    Vice Admiral Neffenger you are leading an agency that is a critical 
link in our Nation's first line of defense against terrorism.
    As TSA administrator you will lead the primary effort to safeguard 
transportation throughout the Nation; protect ports of entry from those 
who would do our Nation harm; fight human trafficking; smuggling; and 
deter threats too varied for them all to be named.
    Each day, TSA processes an average of 1.7 million passengers at 
more than 450 airports across the Nation.
    In 2012, TSA screened 637,582,122 passengers.
    The Bush International and the William P. Hobby Airports are 
essential hubs for domestic and international air travel for Houston 
and the region:
  <bullet> Nearly 40 million passengers traveled through Bush 
        International Airport (IAH) and an additional 10 million 
        traveled through William P. Hobby (HOU)
  <bullet> More than 650 daily departures occur at IAH
  <bullet> IAH is the 11th busiest airport in the United States for 
        total passenger traffic
  <bullet> IAH has 12 all-cargo airlines and handles more than 419,205 
        metric tons of cargo in 2012.
    I know that Congress has not done all that it could to make your 
work easier--Sequestration, a Government shutdown, and a delay in fully 
funding the Department of Homeland Security was not in the security 
interest of the Nation.
    Recent reports issued by the Government Accountability Office (GAO) 
and Department of Homeland Security Office of Inspector General (OIG) 
have identified shortcomings within the agency, raising questions how 
effectively TSA is fulfilling its mission.
    Allegations about mismanagement, wasteful procedures, retaliation 
against whistleblowers, low morale, and security gaps within the agency 
are causes for concern.
    The DHS IG continues to stress TSA's poor responses to confront 
problems concerning passenger and baggage screening, access controls to 
secure areas, and employee misconduct.
    The OIG has produced 115 reports on TSA with hundreds of 
recommendations, many of which remain unresolved.
    In addition, to these reports:
  <bullet> On May 6, 2015, the DHS OIG released a report claiming that 
        TSA does not properly manage the maintenance of its airport 
        screening equipment.
  <bullet> On June 1, 2015 news media reported on alleged preliminary 
        findings from an on-going undercover DHS Inspector General 
        review.
  <bullet> Essentially, Red Team auditors posing as passengers smuggled 
        mock explosives and banned weapons through checkpoints at 
        various U.S. airports. According to media reporting, TSA agents 
        failed 67 out of 70 tests or 96 percent of trials. It is 
        important to note that previous Red Teams investigations raised 
        similar concerns. This IG review is still on-going and the 
        report is to be released this fall.
    These news reports on premature leaked results from ``Red Team'' 
exercises associated with a security at airports were as unfortunate as 
it was reckless.
    The traveling public's confidence in the security of our Nation's 
airports should not be shaken because of Federal Government planned and 
managed tests of airport security.
    Few people outside of the security field understand how vital the 
``Red Team'' test are to improving security.
    ``Red Team'' test are not a grading system for the day to day work 
of the Department of Homeland Security's front-line defense personnel.
    Red Teams are used to do what we must do if we are to learn how to 
think like the terrorists and criminals who we must defeat.
    We cannot wait until the terrorists figure out a way past security 
before we act--because this would mean we have learned none of the 
lessons of September 11, 2001.
    We must commit ourselves to do everything possible to prevent 
another 9/11 from ever occurring again.
    For decades Red Teams have been used by the intelligence community 
and the Department of Defense to seek out ways to overcome security or 
defense vulnerabilities so that we can learn to build better defenses 
and make the work of potential attackers harder.
    It is a good thing that these tests are conducted because we can 
learn and develop new security techniques.
    I am committed to ending sequestration and making sure that my 
colleagues in Congress comprehend the gravity of playing politics with 
security.
    I look forward to the testimony of Vice Admiral Neffenger.
    Thank you.

    Chairman McCaul. We are pleased here today to have the new 
administrator for the TSA. Mr. Peter Neffenger serves as the 
sixth administrator of the TSA where he leads security 
operations at more than 450 airports within the United States 
and a workforce of almost 60,000 employees.
    Prior to joining TSA, Administrator Neffenger served as the 
29th vice commandant of the United States Coast Guard and the 
Coast Guard's deputy commandant for operations. We want to 
thank you for being here today in your debut performance before 
this committee.
    The Chair now recognizes Admiral Neffenger.

STATEMENT OF PETER V. NEFFENGER, ADMINISTRATOR, TRANSPORTATION 
   SECURITY ADMINISTRATION, U.S. DEPARTMENT HOMELAND SECURITY

    Mr. Neffenger. Thank you. I have written comments for the 
record and just a brief opening statement.
    Good morning, Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. Thanks for the 
opportunity to testify in my new role as administrator of TSA. 
I am pleased to appear before you this morning to share my 
vision and my thoughts about the future of TSA.
    Let me begin by saying that TSA is fundamentally a counter-
terrorism organization. Our job is to deter, detect, and 
disrupt those who would harm our system of transportation 
across the country, especially the aviation sector.
    We protect legitimate trade and travel. We have a no-fail 
mission, one for which the consequences of a successful attack 
overwhelm the risk equation and for which we must ensure we 
deliver mission success. This critically important core mission 
is my highest priority.
    As I appear before this committee this morning, I am in the 
middle of my now fourth week on the job. Although brief, I have 
been thoroughly impressed with the professionals who occupy our 
ranks and I want to thank Mr. Thompson for noting those.
    Officers and employees who have sworn an oath to serve 
their Nation in a mission--a critically important mission--that 
encounters more than 2 million travelers a day in the aviation 
sector alone. I have also had some time to become more familiar 
with the challenges facing the agency and develop a set of 
priorities.
    My highest priority is to ensure solutions to the recent 
covert testing failures. Overall, there are several critical 
elements that are essential to improving screening operations. 
First, we must ensure the appropriate measures of effectiveness 
are in place to drive an institutional focus on our primary 
mission. What we measure is what our employees will pay 
attention to. So it is imperative that we get our metrics 
right.
    Second, we must employ a culture of operational evolution, 
one that constantly reassesses our assumptions, our plans, and 
our processes and must be able to rapidly field new concepts of 
operation and new technologies.
    Finally, delivering an effective system in earning the 
confidence of the traveling public will only come through 
competence, discipline, performance, and professionalism. I 
have conveyed these standards to our workforce and I commit to 
you that I relentlessly pursue these objectives.
    I will take on this challenge with the leadership 
perspective that has been central to my approach my entire 
career. A well-defined and clear statement of mission, clear 
and unequivocal standards of performance, training and 
resourcing that enable the workforce to achieve success in an 
unwavering pursuit of accountability.
    I will set expectations of strong values for the workforce 
and I will lead with TSA's core values of integrity, 
innovation, and team spirit at my core.
    Since its creation after the attacks of September 11, 2001, 
TSA has played an invaluable role in protecting the traveling 
public. However, nearly 14 years later, we continue to face a 
range of threats from terrorists who are inspired by messages 
of hatred and violence. A number of terrorist groups remain 
intent on striking the United States and the West, and we know 
that some of them are specifically focused on aviation.
    More troubling, today the threat is more decentralized, it 
is more diffuse and more complex than ever before. These 
persistent threats are TSA's most pressing challenge. Our 
enemies will continually adapt and so must we. We must leverage 
intelligence, technology, the experience of our front-line 
operators and our partners in Federal, State, and local 
governments in the private sector, to employ effective 
measures. We must pay particular attention to the insider 
threat.
    A second challenge facing TSA is retention, training, and 
accountability. Front-line managers and screeners are critical 
to our success. Agency culture, morale, and effectiveness are a 
direct result of career-long development recognition and 
accountability.
    The traveling public expects to be treated with dignity and 
respect. I will pay close attention to training and workforce 
development to include how to leverage and expand the TSA 
academy to develop leaders, improve individual performance, and 
instill a greater sense of pride in our agency, its mission, 
and its values.
    A third organizational challenge for TSA is to ensure it is 
continually fielding the tools and equipment the workforce 
needs today, while envisioning how to modernize our system and 
transform the traveling experience in the future. I see a 
future where advanced capabilities can transform the 
experience, while preserving risk-based security as a central 
feature.
    I think it is possible that an individual's biometric 
identity could effectively become the boarding pass of the 
future, linked to intelligence systems and requiring passage 
through an integrated capability designed to detect metallic- 
and non-metallic-based threats. This future can be realized 
with a suitable strategic approach.
    As such, I commit myself to ensuring that TSA remains a 
high-performing, highly-capable counterterrorism organization, 
guided by a risk-based strategy, employing a multi-layered, 
intelligence-driven operation, and that we recruit and retain a 
highly-trained workforce, one that has the opportunity for 
career growth and development, while placing a premium on 
professional values and accountability; that we pursue advanced 
capabilities with innovation and competition central to our way 
of thinking, and that TSA continues to strengthen its 
integration in the intelligence community, in the private 
sector with our stakeholders, and among DHS and other Federal, 
State, and local partners.
    I will follow this strategy, develop and lead the 
workforce, adapt and invest appropriately, and remain focused 
on these critical success factors.
    Then finally, throughout my years of service, I know and I 
remain aware of the need to balance desires for greater 
security, with protection of the liberties and the rights that 
we cherish. Safeguarding civil liberties and privacy interests 
is a top priority, and I look forward to partnering with this 
committee to enhance the safety of the traveling public, and to 
achieve this balance.
    I applaud the work that the men and women of TSA perform 
each and every day. It is a great honor to join them, and to 
have the privilege of serving with them in the defense of our 
country. Chairman McCaul, Ranking Member Thompson, and Members 
of the committee, I thank you for the opportunity to be here 
today, and I look forward to your questions.
    [The prepared statement of Mr. Neffenger follows:]
                Prepared Statement of Peter V. Neffenger
                             July 29, 2015
    Good morning Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. Thank you for the opportunity 
to testify in my new role as administrator of the Transportation 
Security Administration (TSA).
    It has been my privilege to serve our Nation for the past 34 years 
in the United States Coast Guard. Throughout my career I have worked to 
advance my agency's mission while maintaining a deep sense of 
accountability to the American people who entrust us with their 
protection. I look forward to carrying these efforts forward as I 
undertake my responsibilities as TSA administrator.
    I am especially honored and privileged to work with the men and 
women of TSA. Our front-line workforce carries out an incredibly 
difficult and demanding mission of protecting our Nation's 
transportation systems and ensuring freedom of movement for people and 
commerce. To be clear, this is a difficult job and our employees work 
diligently to secure transportation systems for our Nation. I respect 
and appreciate our TSA employees who rise to the challenge on a daily 
basis.
    The work of TSA employees covers a wide array of duties, ranging 
from intelligence-based screening, to physical screening, to monitoring 
and inspections. In fiscal year 2014, Transportation Security Officers 
(TSO) screened approximately 660 million passengers and nearly 2 
billion carry-on and checked bags. Our officers prevented 181,000 
dangerous, prohibited items, including 2,200 firearms, from being 
carried onto planes. They screened a daily average of 6 million air 
passengers against the U.S. Government's Terrorist Screening Database; 
routinely prevented known or suspected terrorists from boarding 
aircraft; and conducted enhanced screening of passengers, as necessary, 
prior to boarding an aircraft. In addition, TSA's Federal Air Marshals 
protected thousands of flights. Transportation Security Inspectors 
completed over 1,054 airport inspections, 17,894 aircraft operator 
inspections, and 2,959 foreign air carrier inspections to ensure 
compliance with rules and regulations.
    TSA faces unique challenges in its efforts to protect our Nation's 
transportation systems. While intelligence shows us we must remain 
focused on aviation security in particular, TSA is also charged with 
securing mass transit, rail, highway, and pipeline sectors. To function 
effectively, TSA must continue to develop in its role as a 
counterterrorism agency with a dedicated and professional workforce. We 
must strengthen the security of our transportation systems, using an 
array of capabilities including intelligence information, technology, 
and most importantly, the dedication and vigilance of every employee at 
TSA.
    More than a decade after the terrorist attacks of September 11, 
2001, today's terrorist threat is more decentralized, more diffuse, and 
more complex. Today's terrorists publish their instruction manuals on-
line and call on their followers to take action. The persistence of 
this more dispersed threat is among TSA's most pressing challenges. Our 
enemies will continually adapt, and so must we. TSA must leverage 
intelligence, technology, and the experience of our front-line 
operators and private sector partners to ensure we employ effective, 
efficient, and ever-evolving procedures to stop those who would harm 
us.
    Given the threat and enormous challenge accompanying the task at 
hand, I recognize the importance of being a strong leader for TSA--one 
who will explore new ideas and reevaluate current procedures to ensure 
we have the appropriate security in place to protect the traveling 
public. I am honored by the President's trust in me and I sincerely 
look forward to serving in this important leadership position.
                           agency priorities
    The critically important core mission of TSA is to secure the 
Nation's transportation systems and the people who use those systems. 
This is my highest priority. To this end, I have a three-fold approach: 
Employing a strategic, risk-based methodology; developing, training, 
and leading a capable workforce; and pursuing advanced and effective 
security capabilities.
    First, a strategic, risk-based approach to protecting 
transportation is critical given the rapidly-evolving global terror 
threat and persistent adversaries who continually adapt their methods 
and plans for attack. TSA must leverage the latest intelligence to 
inform operations and investments. We must employ risk-based operations 
tailored to each operating environment and transportation mode, not 
one-size-fits-all solutions. To be successful in this endeavor, I 
intend to incorporate intelligence to inform our strategy and 
operations, as well as to expand and strengthen TSA's existing 
partnerships with stakeholders for greater information sharing and 
unity of effort.
    Second, we are also mindful of our interactions with millions of 
travelers each day, and to that end, must place an emphasis on 
professionalism and accountability while we recruit and retain a 
skilled and highly-trained workforce. Further, our officers must be 
constantly trained, developed, and supported in their efforts. This 
training should incorporate the ideas of a culture of adaptation, where 
our workforce constantly questions assumptions, plans, and processes, 
and is able to adapt to new operating procedures, standards, and 
capabilities. Our workforce must be highly capable and well-trained, 
with a strong career path for growth and development. Effectiveness is 
a direct result of consistent training, recognition, and 
accountability. As such, my expectations for the workforce include a 
strong emphasis on values, high standards of performance, and 
accountability. The traveling public expects efficient and effective 
screening, and to be treated with dignity and respect. We must 
continually reinforce this message of dignity and respect in training 
for the front-line workforce and management alike to ingrain these 
principles into agency culture. Delivering an effective security system 
requires that we have the confidence of the traveling public; we earn 
that through competence, disciplined performance, and professionalism.
    Finally, TSA must pursue advanced and effective capabilities in the 
development, acquisition, and deployment of our technology, as well as 
our strategies for checkpoint screening procedures. We must employ a 
strategic systems-focused approach to ensure we are evolving in our 
capabilities and ability to detect and disrupt the latest threat 
streams. We will leverage our team's experience in acquisition and 
innovative sourcing to lead TSA in the next phase of the agency's 
development. This focus will help TSA to invest its resources to 
systemically reduce vulnerabilities and mitigate risks.
                     improving screening operations
    TSA faces a number of challenges, which I plan to address by 
evaluating screening operations and meeting the standards the American 
people expect. First among these efforts will be addressing the recent 
covert testing of TSA's checkpoint operations and technology conducted 
by the Department of Homeland Security (DHS) Office of Inspector 
General (OIG). I am greatly disturbed by TSA's failure rate on these 
tests, and have held numerous briefings and meetings to better 
understand the nature of the failures, the root causes, and the scope 
of the corrective actions needed. I am committed to working with senior 
leaders at TSA and DHS to formulate solutions that will enhance our 
effectiveness at checkpoint operations--and then to test those 
enhancements.
    To that end, I am carrying out DHS Secretary Johnson's ten-step 
plan as follows:
  <bullet> Brief all Federal Security Directors at airports Nation-wide 
        on the OIG's preliminary test results. This was completed in 
        May.
  <bullet> Train every TSO to address the specific vulnerabilities 
        identified by the OIG tests. We are now implementing this in a 
        phased approach, which began May 29, 2015 and is to be 
        completed by the end of September 2015.
  <bullet> Increase manual screening measures, including reintroducing 
        hand-held metal detectors to resolve alarms at the checkpoint. 
        This has been underway since mid-June.
  <bullet> Increase use of random explosives trace detection, also 
        started in mid-June.
  <bullet> Test and evaluate screening equipment to measure current 
        performance standards.
  <bullet> Assess areas where screening technology equipment can be 
        enhanced.
  <bullet> Evaluate the current practice of including non-vetted 
        populations in expedited screening.
  <bullet> Revise TSA's standard operating procedures to include using 
        TSA supervisors to help resolve situations at security 
        checkpoints. On June 26, 2015, TSA began field testing new 
        standard operating procedures at six airports. Lessons learned 
        will be incorporated and deployed Nation-wide.
  <bullet> Continue covert testing to assess the effectiveness of these 
        new actions. For each test, there must be a same-day debrief 
        with the workforce of what did or did not work along with 
        immediate remediation actions.
  <bullet> We have responded vigorously to establish a team of TSA and 
        other DHS officials to monitor implementation of these measures 
        and report to the Secretary and administrator every 2 weeks.
    While these immediate actions address specific vulnerabilities 
identified by the OIG tests, our systemic review over the coming weeks 
to identify vulnerabilities across the aviation security system will be 
invaluable. The assessments are designed to determine the proximate 
root causes of these failures and provide effective system-wide 
solutions.
                    responding to the insider threat
    The December 2014 incident involving an alleged gun smuggling ring 
at Hartsfield-Jackson Atlanta International Airport highlighted the 
potential for airport and airline employees to use their access for 
illicit purposes. In January 2015, Secretary Johnson and TSA consulted 
the Aviation Security Advisory Committee (ASAC) to review the issues 
associated with insider threats and asked for their recommendations to 
improve airport employee access control at our Nation's airports. The 
ASAC completed its 90-day review in April of this year, and delivered 
its 28 recommendations to TSA.
    TSA immediately implemented five initial action items recommended 
by the ASAC, which include: A requirement for airports and airlines to 
conduct fingerprint-based Criminal History Records Checks (CHRC) every 
2 years for all airport and airline employee badge holders until an 
automated recurrent vetting solution is complete; a reinforcement of 
existing requirements that employees traveling as passengers be 
screened by TSA; a reduction in the number of access points to secured 
areas to an operational minimum; increased random employee screening; 
and a joint effort with our stakeholder partners to leverage the DHS 
``If You See Something, Say Something<SUP>TM</SUP>'' initiative to 
encourage reporting of insider threat activity.
    In addition to those immediate steps, we began a phased 
implementation of the Federal Bureau of Investigation (FBI) criminal 
history monitoring program, Rap Back, with an aviation pilot beginning 
at Dallas Fort Worth International Airport and Boston Logan 
International Airport, and with Delta Air Lines. The program ensures 
real-time criminal history monitoring of the aviation worker 
population. Rap Back is part of the FBI's Next Generation 
Identification Program, introduced in September 2014.
    TSA fully concurs with 26 and partially concurs with the other two 
recommendations of the ASAC report. Statutory limitations in one 
instance and the need to conduct a detailed cost-benefit analysis 
locally in another are the reasons for the partial acceptance of two 
recommendations.
    We are acting on the ASAC recommendations and have set a definitive 
schedule for assessing and reporting the results on actions taken based 
on the recommendations.
      advancing risk-based security (rbs) and expedited screening
    I am a strong proponent of a risk-based approach to security. The 
vast majority of people, goods, and services moving through our 
transportation systems are legitimate and pose minimal risk. The first 
necessary effort in pursuing risk-based security is to identify the 
low-risk majority so that we are not forced to apply our scarce 
resource capabilities to known or unknown threats. The drawbacks of a 
single approach are clear--severely limiting effectiveness and 
efficiency while perhaps introducing vulnerabilities and opportunities 
for harm. If we can understand the threats and identify the 
vulnerabilities of our systems, then we can design our security system 
to reduce the risk and close vulnerabilities.
    I hear and understand the concerns raised by this committee and the 
OIG about the current application of TSA's Risk-Based Strategy (RBS) 
approach. Expedited screening should be available to fully-vetted 
populations. We are reviewing the procedures for expedited screening 
and an evaluation of the appropriateness and effectiveness of the 
various security tools currently in use.
    I am committed to refining and enhancing our expedited screening 
procedures, including TSA PreCheck<SUP>TM</SUP>. One of the major ways 
for us to expand the number of known and trusted travelers eligible for 
expedited screening will be through the expansion of the TSA 
PreCheck<SUP>TM</SUP> Application Program. I look forward to efforts 
such as expanding participation to additional U.S. and foreign 
airlines, exploring potential opportunities to leverage private-sector 
capabilities and expertise in the TSA PreCheck<SUP>TM</SUP> application 
process, and offering additional opportunities for enrollment in TSA 
PreCheck<SUP>TM</SUP> to increase the number of vetted enrollees. These 
opportunities present important opportunities for changing the dynamic 
of checkpoint screening Nation-wide, and most importantly present us 
with an opportunity to focus on those passengers about whom we are most 
concerned--or those about whom we know less--to ensure maximum security 
for the traveling public. These efforts will make entry into the 
aviation security system for those who are interested in sharing more 
about themselves more accessible and available. The goal is to move 
towards a known and vetted population.
                               conclusion
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you today. I 
am honored to serve in this capacity and I look forward to your 
questions.

    Chairman McCaul. Thank you, Admiral. I now recognize myself 
for questions.
    Admiral, as you and I know, al-Qaeda, particularly al-Qaeda 
and the Arabian Peninsula, and the Khorasan Group in Syria, are 
still very intent on hitting the aviation sector, primarily 
through bombs, specifically non-metallic IEDs. This led to a 
heightening of screening at 25 airports overseas.
    We have made some progress against them through strikes, 
recently taking out the leader of the Khorasan Group, and 
others. But that threat is still there. With this dismal report 
card that came in, 96 percent failure rate.
    Given the threat that is out there, I am concerned about 
the safety of the American people when they travel on 
airplanes; not to mention that 73 aviation workers have 
potential ties to terrorism.
    Now, I can't get into all the details, because it still 
remains Classified in terms of what slipped through the cracks. 
But what are you doing--what are you planning to do as the new 
TSA administrator to address this enormous failure?
    Mr. Neffenger. Mr. Chairman, thank you for the question. 
You are absolutely correct to point out that this is a huge 
concern, and it greatly disturbs me to know that we had that 
failure rate at the checkpoint.
    As you know, the checkpoint, although not the only element 
in our system of security, is a critically important element in 
the system of security. It is the barrier between the sterile 
and non-sterile areas of an airport. It is a visible deterrent, 
and it is a last chance to catch items that we do not want 
getting on-board aircraft.
    So as I looked at the failure rate, my immediate questions 
were the same ones that Secretary Johnson had. As you know, 
that came out during my nomination and confirmation process, 
and I had a number of conversations with the Secretary. He 
immediately ordered an establishment of a team to take a hard 
look at the nature of the failures and what they have done.
    So I have inherited that team. I have seen the work that 
they have done. What I can do, is I will speak directly to what 
that team is doing, but then I will speak in more systemic 
terms of what I think it is telling us about where our concerns 
are.
    As you know, I will begin by saying that covert testing is 
a net-positive because you want to try to break your system of 
security on a daily basis to ensure that you have got it right. 
It goes back to the need to continually adapt and evolve your 
organization. But when it breaks to the extent that we saw, 
that raises some significant questions about how effective you 
have been.
    So what the team has done, is they took a hard look at 
exactly what the nature of each individual failure was. We 
looked case by case of the tests that the I.G. did. The I.G.--
and I have sat and talked with the I.G. extensively about this, 
and they have been quite open about sharing their results.
    We looked at the nature of the test, and we looked to see, 
is it a technology issue, is it a human-performance issue, is 
it a process or procedure issue? As you might suspect, it is, 
in some cases, some combination of those three elements.
    Then we looked to see whether there was a way to mitigate 
that, so that what the team has done over the past 3 months is 
to take apart all of those. They have got a detailed brief. I 
would offer to the committee a detailed brief on the specifics 
of that team. I think it would be--it would help you to 
understand how we are moving forward.
    Then we looked at, how do we train out those specific 
failures? Because the immediate need is to train out those 
failures so that we don't have a repeat of those. We are now in 
the process of doing that. Over the course of the next 60 days, 
by the end of September, we will have trained the failure, the 
specifics about the failures, to every front-line member of 
TSA.
    That will address the immediate problem. I think that we 
can do that. The bigger question is: Are there systemic issues 
in the way we are approaching our business, that led to those 
failures in the first place, so that we--what I don't want to 
see is some other set of failures in the future.
    I know that I can train to these, but I am interested in 
figuring out how we train to the larger, and to the larger 
questions out there. That is what we are working on now. That 
goes to a vision for how you then begin to think of yourself in 
this continuously-evolving, continuously-adapting way.
    As I said, the thing to remember is that there are other 
elements of the system; some of them virtual, some other 
physical elements of the system. But the checkpoint is one of 
the most important, and we have to get that right.
    Chairman McCaul. You talk about technology and vision for 
the future--you and I have talked about this privately--it 
seems like we have--you know, PreCheck I think has been a 
success in global entry, makes more passenger-friendly, more 
risk-based, which I think is where TSA should go.
    But as we look at the future, the checkpoint of the future, 
and the use of technologies, what is your vision for the next, 
say, 5 to 10 years? What will the experience be like? What is 
your goal for the traveling passenger?
    Mr. Neffenger. That is a wonderful question, because as 
somebody who has traveled a lot over the years, I know what 
checkpoints can feel like when you get there. I do think that 
there is a vision for something in the future.
    One of the best terms I have heard recently was ``security 
at the speed of life.'' I like that. There are a number of 
interesting and innovative ideas out there.
    I mentioned one in my opening statement; the idea that you 
are your boarding pass. If I can tie you biometrically to a 
reservation, to an identification, and I can do so in a 
verified way, then, one, that moves you through the process 
faster. We eliminate boarding passes.
    As you know, every airline has a different style of 
boarding pass. It makes it very challenging for those document 
checkers to check those, because they are looking at something 
different. There is not a lot of consistency there.
    So I think we can eliminate the boarding pass. I think we 
can move to integrated technology that does--and right now 
there is a challenge because the AIT machines don't do metal 
detection. Metal detectors don't do non-metallic explosives. 
Nothing sniffs for explosives as you go through. I have 
actually seen prototypes of machines that you can walk through, 
and it does all of that in one.
    Now, can they be fielded effectively? I don't know. I think 
this goes back to your earlier question about competition. I 
think we could do a lot more to incentivize competition in the 
private sector.
    I am currently right now tied to a process that has me 
buying a lot of equipment that may be obsolete shortly after I 
buy it. I have to adapt continuously to a changing threat. I 
look at the way the Department of Defense, for example, has 
periodically incentivized competition in the private sector to 
come up with new ideas.
    I think there are ways to do that. I would love to have 
more conversations with this committee on ways that we can do 
that, ways that we can use or modify some of our acquisition 
practices and policies to allow us to do that.
    Chairman McCaul. Well, I will look forward to working with 
you on that. Thank you for your testimony. The Chair recognizes 
the Ranking Member.
    Mr. Thompson. Thank you very much. Mr. Neffenger, your 
comments, clearly, a breath of fresh air. I think the Chairman 
will agree with me on that.
    We have passed a modernization of acquisition legislation 
to kind of give the Department a freer reign. One of the 
challenges we have is the culture of, ``But we have always done 
it this way.''
    So we buy technology, being TSA, that we already know does 
not address the emerging threat, but because, ``This is how we 
do.'' Members of Congress have raised that question a number of 
times.
    I am glad to see you willing to say, ``How can we get out 
of this?'' CIA, NASA, some of the other agencies, they have 
vehicles that they use to incentivize the acquisition of new 
technology. Some of it is you create a venture for them, and 
you purchase participation with those companies so they can 
continue the development.
    We tried that for quite a while. I want to talk to you a 
little bit about that going forward. But as we talk about 
technology, let's talk about how we do processing. The Managed 
Inclusion program, some of us have had real problems with it.
    It appears that the issue became, ``How can we get people 
through the checkpoint faster?'' rather than, ``How can we 
guarantee that those people who go through have actually been 
vetted?'' So we had cross-purposes.
    How do you see the Department working on this Managed 
Inclusion program?
    Mr. Neffenger. Well, thanks for your question.
    I agree completely with you. I would like to see us, and in 
fact I have ordered a phasing out of the Managed Inclusion 
Program, because I think--the goal is to have a fully-vetted 
population in the PreCheck Program. The more I know--I want 
known people, people I trust going through the program.
    That is really the heart of risk-based security is I want 
to separate a known population from the ones I don't know 
anything about, I want to make the experience less intrusive 
for the known population, one that reduces the burden on the 
agency. I am paying attention to the things I need to pay 
attention to versus people that have already vetted.
    So, I think we have to phase out Managed Inclusion, because 
it introduces, I think, perhaps a higher level of risk than we 
want in the system. I want to grow the use of passenger-
detecting--I mean, passenger-screening canines. These are the 
explosive detection dogs that we have out there. That is a--I 
mean, they are a tremendous asset and we are looking to expand 
that program slightly and to reposition some of the K9 teams 
that we have in locations that are lower-risk to higher-risk 
locations.
    But more importantly, I want to look to--we are working on 
a request for a proposal to put out the option for private-
sector third-party screeners to help us do the initial 
marketing and collection of people into the PreCheck Program. I 
have had a number of conversations with travel aggregators, 
with credit card companies and the like, and I think that there 
is an opportunity to expand that PreCheck population, the known 
population, enrolled population over the near term, and so I am 
encouraged by the opportunity.
    I am hoping that this request for proposal generates a lot 
of interest and competition in in the private sector, and then 
to grow that population, but that is my move. Then to move 
people that are already screened, like we did with military 
members and others, that have already had background checks, 
that have already biometric on file, into the PreCheck Program 
based upon their on-going clearances.
    Mr. Thompson. A couple other questions.
    One is the whole employee morale issue. Every OPM report 
that we read lists DHS at the bottom, and more specifically, 
TSA. How do you plan to get us off the bottom?
    Mr. Neffenger. Well, I read the Federal employee viewpoint 
survey that TSA did, and you are right, it doesn't rank near 
the top of organizations. I think, as I go back to what I said 
in my opening statement. I think morale is a--first of all, it 
starts with a clear understanding of mission.
    Actually I start with the fact that every one of them 
raised their hand and took an oath of office to support and 
defend the Constitution of the United States. That is a huge 
statement. If you think about it, how few people in this 
country do that? So they took a job that--I am sure their eyes 
were open, they knew it wasn't the most popular job in the 
country. But they said, ``I want to be the face of security for 
the traveling public.'' That is where morale starts.
    Now, where does morale fail after that? It is when--it is 
if there is a disconnect between what they think they signed up 
for and what they think the organization is asking them to do.
    So, I go right back to mission, and my three decades in 
Coast Guard taught me that it starts with mission, and then you 
have to talk about that mission, and you have to train to that 
mission, and you have to measure that mission. So if I come to 
work, I want to know that I am--that my agency is not only 
giving me the tools and the training I need to do it, they are 
doing it on a regular basis, and they are backing me up when I 
have to make decisions.
    So, I think there is a lot of training of that, and I think 
that there is a work force engagement piece.
    Mr. Thompson. Thank you.
    My last question, Mr. Administrator, with respect to the 
TWIC card. We have resolved the problem, with this committee's 
help, that people who applied don't have to go back. Now we are 
hearing that when they try to get re-certified, there is a 
tremendous backlog, so that members' TWIC card expires before 
the new card comes, and we would like for you to look at that.
    So, in this committee's efforts, I don't want us to have 
created a bigger problem by alleviating the second trip, and we 
didn't fix the getting the TWIC card back to the person.
    The last item is, those TWIC card workers who work on 
military installations on selected instances are being required 
to get an additional card, it costs about $200, that asks the 
same information that the TWIC card asks. So, can we see if 
there is some reciprocity that the TWIC card can provide to 
other installations, so that those workers don't have to pay 
for a second card?
    Mr. Neffenger. Well, I am not familiar with the concern 
that you are raising, but if I can get with your staff to find 
out what that issue is, I will certainly look into that. I 
think it would make sense if we can--if we are collecting the 
same information, we can verify the same things, then I think 
it makes sense to work on reciprocity.
    Mr. Thompson. The issue of getting the cards back before 
they expire?
    Mr. Neffenger. Yes, sir. Again, let me find out what our 
current backlog is. I know that the TWIC has been a challenge 
over the years, and it is a focus area for me as I move 
forward. I would like to know what the backlog is and again, 
are there things that we can do that can dramatically speed up 
that process?
    Mr. Thompson. Thank you very much.
    I yield back.
    Chairman McCaul. Mr. Rogers is recognized.
    Mr. Rogers. Thank you, Mr. Chairman.
    Admiral, welcome. You have got a big challenge on your 
hands. I have been on this committee since it was established, 
I have seen the Department grow and develop since it was 
established, and I can just assure you you have some inertia to 
deal with. You have some employees that you are gonna have to 
put the fear of God in their heart or nothing is going to 
change.
    I have seen some good administrators precede you that ran 
into administrative pressures to back off; you are gonna run 
into that. But I want you to understand that you have got some 
folks that really believe they don't have to change, you will 
be gone before they are, and you need to make them understand 
that is not the case.
    If they don't change what they are doing--now, it can't be 
slight changes, it is gonna be dramatic changes, or we are 
gonna have the results we have been getting for the last 
several years.
    This most recent I.G. report that upset so many people was 
identical to the previous three I.G. reports over roughly a 5-
year period of time. That is unacceptable, and that is people 
who are unwilling to do anything different and don't believe 
there are consequences for not doing anything different.
    So, I hope that you will instill that understanding in 
them, that if they don't change, they are gone, and if you 
can't do that, you ought to be gone, and I think you would 
agree with that.
    One concern I have got, I heard the Chairman make reference 
to the PreCheck program. Very good program as far as its goals. 
The problem we are running into, and I think when you move 
around airports you will see this, is that frequent travelers 
who are the people we want into this program, have gotten in to 
it. The FSDs at the airports have not adjusted the lane 
activity to accommodate that traffic, so now you spend more 
time in the PreCheck line than you do if you go into the 
priority lane--sky priority, whatever they call it, and just go 
through the typical take-your-shoes-off type.
    That is silly, people are gonna stop going into the 
PreCheck program if they don't it find it enhances their 
ability to get through in a faster fashion. So, I hope you will 
address that issue with these airport folks, because we want 
the PreCheck program to continue and to be the method of 
getting safe people that we know through in an efficient manner 
so we can put more attention on those infrequent travelers who 
are more apt to have a problem.
    I did hear you make reference to the fact that you 
understand the explosive detection canines are a valuable 
asset. They are the best asset you have, and I am not gonna 
talk in a open setting about the efficacy of the equipment or 
the personnel, but I would like to, soon as we are back from 
our August district work period, to meet with you in the SCIF 
and go over in detail what the shortcomings have been.
    I used to chair the Transportation Security Subcommittee, I 
am very familiar with this subject matter and what I think 
needs to be done to remedy that. So, I look forward to that and 
I hope I can get your commitment to meet with me in September 
for that purpose.
    Mr. Neffenger. Yes, sir, I would be happy to do so.
    Mr. Rogers. That is all I have got. Thank you, Mr. 
Chairman, I yield back.
    Chairman McCaul. Gentleman Chair recognizes Ms. Jackson 
Lee.
    Ms. Jackson Lee. First, let me offer my appreciation to my 
Chairman and Ranking Member for your presence here today, Vice 
Admiral, and let me thank you for your service. It is 
interesting that I followed my good friend Mr. Rogers, because 
as he chaired, I think we have switched back and forth. I had 
the privilege of chairing the Transportation Security 
Committee, and service--and I think I have served as his 
Ranking when he was Chair, and we are, if you will, young but 
we have been here for a little bit.
    So we are really grateful for you service, and again, that 
of my Chair and Ranking Member of the full committee.
    Let me, as I thank you for service, let me take a different 
twist and say to you that I am very proud of the men and women 
who serve every day on the front lines in many ways, but in 
particular today of transportation security officers.
    Over the years, I have argued for increased professional 
development training, to recognize that morale and commitment 
have a lot to do with pay, respect, and professional 
development training, and I am gonna be posing questions within 
the short period of time that I have.
    Let me also acknowledge to my colleagues, again, my 
sympathy to the Hernandez family for Mr. Gerardo Hernandez 
killed in the line of duty as a Transportation Security Officer 
in Los Angeles. Some of us went out to Los Angeles to 
acknowledge that as well as meeting with his family.
    We should never dismiss the fact, in all of the issues that 
you will have to deal with, is that since 9/11, there are 
probably millions of TSA screenings, TSO screenings, and any 
number of stops that the TSO Officers made--and I hope you 
acknowledge that, because beginning to correct starts with 
acknowledging service, and I think it is very important to do 
so.
    Let me also say, however, that in addition to that, we have 
allegations of mismanagement, wasteful procedures, retaliation 
against whistle blowers, low morale, security gaps. We have a 
number of things that you will have to address, but I never 
want to leave this table without saying thank you to the TSO 
Officers.
    I make it my business, as I travel in airports across 
America, to say hello, to ask a question, or to watch their 
procedures, and again if I might, professional development 
training is crucial.
    So let me just ask you a series of questions that I hope I 
will be able to get in. One, I think you can do better if we 
all get rid of sequestration. I want to get that on the record 
because you need the money placed in the right places.
    I agree with the use of privatization on the basis of--let 
me correct that for being misquoted. I believe there is a place 
for the private sector in particular dealing with technology. I 
might have misheard you when you said something about a third 
TSA and it was the private sector. So I hope that is not right.
    I am against privatizing airports and privatizing TSO 
Officers. I think we need a professional, trained group. I want 
your comments as it relates to professional, trained groups.
    But on the BDO, there is $700 million being spent on that. 
I would be interested in you being able to craft an effective 
utilization of these individuals or this project with a more 
effective use of the resources that you are given on that, also 
BDO.
    I want to take note of the fact that a young man in Dallas 
was so in love with his girlfriend just recently ran past 
security. I would like your comment on that. We shut down the 
Newark Airport a couple of years ago with another enamored 
young man who went through security.
    Then I would like to have your comment that TSOs are the 
most visible face of security in America. How do we make people 
run toward, meaning the good people, and say I am so happy, as 
most people do, about these issues?
    If I might yield to you for these answers. Again, I hope I 
can join Mr. Rogers and others for that SCIF briefing. I would 
be happy to do so.
    If you could just comment on those, I would greatly 
appreciate it.
    Mr. Neffenger. Thank you, Congresswoman Jackson Lee. Thank 
you, first and foremost, for acknowledging the workforce. I 
couldn't agree with you more. The mission of TSA is delivered 
by those front-line transportation security officers across 
this Nation.
    I can't say enough how important they are to the success of 
the program, but I can't also thank them enough for the work 
that they do. I intend to do that and I do that myself whenever 
I travel and certainly now.
    With respect to budget, I think you are right, 
sequestration is going to be a challenge for every Government 
agency that will be subjected to it. I hope that the Congress 
is able to pass a budget resolution that will eliminate 
sequestration and allow us to have some certainty going 
forward.
    To correct, to make sure it was clear what I was saying 
with respect to third party, I was really speaking about 
incentivizing private-sector entities, private-sector 
businesses to help develop the technologies we need into the 
future.
    I think that there is a way to do that in a competitive 
way, in a competitive environment, and to provide incentives 
that don't have governments taking on all the risks to 
development, don't have Government buying, you know, huge 
capital outlays for equipment that then later becomes obsolete.
    The BDO program, as you know there has been some 
controversy about that program. There have been a number of GAO 
audits and one I.G. audit that has looked at the efficacy of 
the program and the work that is done.
    I know that TSA contracted out a third-party overview of 
that program. That third party spent 2 years collecting data on 
that program and running tests. That was submitted in the 
report.
    Then there is a question with respect to the underlying 
concerns. I know that we are in the process of completing a 
report showing what we believe to be the scientific 
underpinnings of that.
    That said, I understand the concern with the use of that. 
From my perspective, and I am not clear on how I feel about the 
BDO program yet, being relatively new, but from my perspective, 
if I can show a link to validated, scientific underpinnings, if 
I can show some effectiveness with behavioral viewing, then I 
think that it is a good tool to have in the security toolkit.
    I know that law enforcement agencies around the world use 
behavioral indications as a way of determining if they have got 
problems, whether you are a beat cop or you are looking at 
other situations.
    So I think that I am looking forward to reading that report 
that was done that looked at the scientific underpinnings, and 
then I look forward to discussing that further with the 
committee.
    The security breach at Dallas Airport that you mentioned, 
that is of great concern to me for a couple of reasons. One, I 
am very concerned about the safety of our front-line workforce. 
Officer Hernandez, a tragic loss of Officer Hernandez, the 
attack in New Orleans earlier this spring, those are very real 
threats that can face our front-line workforce and you have to 
be careful of that.
    So any potential for somebody to breach a barrier runs the 
potential for not just a safety issue, but obviously the 
security issue.
    So I ordered an immediate review of that incident. I want 
to find out what happened. But more importantly, again, this 
goes back to the systemic issue, you know, I don't want to just 
go around whacking every one-off problem that exists. I want to 
look at the system and understand, do we have an issue with 
security at our checkpoints? Again, that is the barrier between 
the non-sterile and the sterile areas. There has to be an 
expectation of that barrier working.
    So I don't have the full results of the investigation of 
that yet. I will share that with you when I have it. But more 
importantly, I am going to look across the system and look at 
how we are doing this.
    Ms. Jackson Lee. Thank you for your courtesy.
    May I put this in the record, please, Mr. Chairman?
    Chairman McCaul. Yes, without objection.
    Ms. Jackson Lee. Thank you.
    Chairman McCaul. Do you want to state what it is?
    Ms. Jackson Lee. ``Undercover DHS test finds security 
failures at U.S. airports.'' I would just like to put this in 
the record so we can discuss it further. Thank you.
    Chairman McCaul. Without objection, so ordered.
    Ms. Jackson Lee. Ask unanimous consent. Thank you.
    [The information follows:]
      Article Submitted For the Record by Hon. Sheila Jackson Lee
      undercover dhs tests find security failures at u.s. airports
Jun 1, 2015, 7:04 AM ET
By Justin Fishel, Pierre Thomas, Mike Levine, and Jack Date via Good 
Morning America
    An internal investigation of the Transportation Security 
Administration revealed security failures at dozens of the Nation's 
busiest airports, where undercover investigators were able to smuggle 
mock explosives or banned weapons through checkpoints in 95 percent of 
trials, ABC News has learned.
    The series of tests were conducted by Homeland Security Red Teams 
who pose as passengers, setting out to beat the system.
    According to officials briefed on the results of a recent Homeland 
Security Inspector General's report, TSA agents failed 67 out of 70 
tests, with Red Team members repeatedly able to get potential weapons 
through checkpoints.
    In one test an undercover agent was stopped after setting off an 
alarm at a magnetometer, but TSA screeners failed to detect a fake 
explosive device that was taped to his back during a follow-on pat 
down.
    Officials would not divulge the exact time period of the testing 
other than to say it concluded recently.
    Homeland Security Secretary Jeh Johnson was apparently so 
frustrated by the findings he sought a detailed briefing on them last 
week at TSA headquarters in Arlington, Virginia, according to sources. 
U.S. officials insisted changes have already been made at airports to 
address vulnerabilities identified by the latest tests.
    ``Upon learning the initial findings of the Office of Inspector 
General's report, Secretary Johnson immediately directed TSA to 
implement a series of actions, several of which are now in place, to 
address the issues raised in the report,'' the DHS said in a written 
statement to ABC News.
    Homeland security officials insist that security at the Nation's 
airports is strong--that there are layers of security including bomb-
sniffing dogs and other technologies seen and unseen. But the officials 
that ABC News spoke to admit these were disappointing results.
    This is not the first time the TSA has had trouble spotting Red 
Team agents. A similar episode played out in 2013, when an undercover 
investigator with a fake bomb hidden on his body passed through a metal 
detector, went through a pat-down at New Jersey's Newark Liberty 
Airport, and was never caught.
    At the time, the TSA said Red Team tests occurred weekly all over 
the United States and were meant to ``push the boundaries of our 
people, processes, and technology.''
    ``We know that the adversary innovates and we have to push 
ourselves to capacity in order to remain one step ahead,'' a TSA 
official wrote on the agency's blog in March 2013. ``[O]ur testers 
often make these covert tests as difficult as possible.''
    In a 2013 hearing on Capitol Hill, then-TSA administrator John 
Pistole, described the Red Team as ``super terrorists,'' who know 
precisely which weaknesses to exploit.
    ``[Testers] know exactly what our protocols are. They can create 
and devise and conceal items that . . . not even the best terrorists 
would be able to do,'' Pistole told lawmakers at a House hearing.
    More recently, the DHS inspector general's office concluded a 
series of undercover tests targeting checked baggage screening at 
airports across the country.
    That review found ``vulnerabilities'' throughout the system, 
attributing them to human error and technological failures, according 
to a 3-paragraph summary of the review released in September.
    In addition, the review determined that despite spending $540 
million for checked baggage screening equipment and another $11 million 
for training since a previous review in 2009, the TSA failed to make 
any noticeable improvements in that time.

    Chairman McCaul. Mr. Katko is recognized.
    Mr. Katko. Thank you, Mr. Chairman.
    I want to first of all echo the sentiments of Mr. Thompson 
that you are indeed a breath of fresh air. We have spent a lot 
of time together in the last few days and since you have come 
on-board and I think you are exactly what TSA needs at this 
time.
    I also echo the sentiments of Mr. Rogers that there are a 
lot of problems at TSA. But I also--I sound like a politician--
but I also echo the sentiments of Ms. Jackson Lee and want to 
say thank you for the good work that the vast majority of your 
employees are doing day-in and day-out. You are often trying to 
find a needle in the haystack and I appreciate the efforts of 
everyone.
    One of the areas I want to focus on a little bit today is 
the issue of access control. We have kind of touched on it, but 
I think it is a gaping hole in security at the airports Nation-
wide.
    Within the last year or 2, you have had a major drug 
trafficking ring operating out of the Oakland Airport. You had 
another one operating out of Dallas/Fort Worth Airport that has 
truly troubling implications based on the briefings I have 
received so far about it that aren't necessarily public.
    Another one, of course, that is very troubling was an 
individual who smuggled as much as 160 guns, loaded, including 
assault rifles, on airlines because a worker at the Atlanta 
Airport carried the guns in bags through the access points and 
brought them up to New York City. At any point, instead of 
selling them, if he wanted to do something bad on an airplane 
we would have had an unbelievable tragedy on our hands.
    I think these incidents point out that there really is a 
major problem with access controls at airports. I recently had 
a bill passed out of our committee, our subcommittee addressing 
the issue.
    But I would like to hear your thoughts on the access 
control issue. Should there be minimum standards at all access 
points of these airports?
    I will preface the question further by saying that it is 
clear from the Dallas case that the VIPR teams that are used to 
do the random screening at various points were being monitored 
by the bad guys at Dallas/Fort Worth and they were just simply 
avoiding them with a quick phone call to their colleagues.
    So that is not going to work going forward. So with that 
overview and those set of prefaces, I would like to hear your 
thoughts on access controls.
    Mr. Neffenger. Thanks. I agree with your concern. As you 
know, those incidents--let me back up a little bit and talk in 
general terms. This should be a known and trusted population. 
Every one of these workers gets vetted for background. There is 
a question as to how far we need to go back in the future, but 
that we vet them for background, they are continuously vetted, 
any credential holder is continuously vetted against the terror 
screening database.
    Then currently, there is a periodic revetting against 
criminal databases. That doesn't guarantee that you don't have 
a criminal population, that just guarantees that they didn't 
show up at that point.
    So what do you do about the potential for criminal activity 
or worse in a known and trusted population? You introduce 
uncertainty in that population and you try to grow a culture of 
belonging to that organization.
    So I absolutely agree that access should be reduced to the 
minimum necessary to ensure operations of the facility.
    I think of my experience in the port environment. When we 
looked at the maritime sector right after 9/11, a wide-open 
environment for obvious reasons. You want stuff to freely move 
in and out.
    The first answers we got back from the maritime sector 
were, it is impossible to close this down.
    But over time we did that. You set a series of standards 
that have to be met, an expectation that there will be 
periodic, random and other types of inspections, that you are 
subject to it, growing a sense of a culture that we are all in 
this together.
    So as I look at the aviation environment, I look at the 
hundreds of different employers of people who hold badges, and 
you think, how do I get that group of people to think as one, 
to recognize that this is their airport?
    So there is a campaign out there. I think that a 
combination of reducing access points, increasing--setting 
specific standards for what we expect to be going through those 
access points, how you inspect to those standards, keeping that 
randomized expectation of inspection because I think that 
helps. You need a number of these things. Then growing a sense 
amongst the workforce, the large number and large percentage of 
which are good, solid, you know, hardworking people that, look, 
it is their responsibility to help police this as well.
    There are some airports out there that have done this and 
they have done it very effectively. I would like to look and 
see what those best practices are and extend those across.
    I am looking at the Aviation Security Advisory Committee 
recommendations. As you know, they had very strong opinions 
about access controls. I will be meeting with that group in the 
course of the next few weeks. I am meeting with the airport 
executives, meeting with the Airports Council. This is a top 
issue of concern to me as well.
    Mr. Katko. Certainly to follow up, there are a couple of 
airports Nation-wide, namely Miami and Orlando, and I think 
Atlanta is going towards this, if they are not already there. 
Atlanta and Miami out of necessity for criminal conduct that 
was going on there on their properties.
    But those three airports, including Atlanta being the 
largest airport in the world, I believe the busiest airport in 
the world, are all going towards 100 percent screening of 
employees.
    Now, we hear from airports across the country again and 
again that is simply not doable. I would like to hear your 
thoughts on that.
    Mr. Neffenger. Well, I am going to start with a visit to 
those airports and I am going to do that over the course of the 
month of August, because I want to see what 100 percent 
security looks like. I want to hear from them how they achieved 
it, what are the challenges and what are the on-going 
implications, because I need to be able to address that when I 
visit with the airports who claim that they can't do that.
    So I am on a little fact-finding mission over the next 
month to try to educate myself as to what the various arguments 
are and what I would like to do is continue to have this 
conversation going forward and when I--after I do that.
    Mr. Katko. I look forward to it, sir.
    Chairman McCaul. Okay, thank you.
    Mr. Katko. Thank you.
    Chairman McCaul. Miss Rice is recognized.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to just talk first about 
diversity. Now, I think gender diversity is a goal for most 
public and private sectors, but I think for TSA, it is actually 
an absolute necessity, given the traveling public that they are 
interacting with on a daily basis. What percentage of TSA 
employees are women?
    Mr. Neffenger. I don't have that number off the top of my 
head, although I have asked for that and it is one of the--it 
is one of the things I am talking about this week. Diversity, 
as you know, is critically important.
    I will say that, just anecdotally speaking, I have been 
pleased to see what looks to be a very diverse front-line work 
force as I travel around. I will get you the percentage of 
women that we have, and I will break it up by categories, too. 
Overall, TSOs and the like, going up.
    I think that diversity is the key to success in an 
organization. Always has been. It is one of the biggest 
challenges we faced in the Coast Guard and in the military, was 
not just recruiting, but retaining a diverse-looking work 
force, and we found out early on that just recruiting wasn't 
enough to call yourself diverse, if there is no pathway up 
through the organization.
    So what I can commit to you is that it is of critical 
importance to me across the organization and not just in the 
entry level, but throughout the organization and to look for 
opportunities throughout.
    Miss Rice. I am glad to hear that, because I think that 
there are limitations placed on female employees that male 
employees do not have, given how, if you--say you were to have 
a female employee at baggage, but actually needing to be pulled 
over to passenger pat-down area because of the need to have 
more women, only being--you know, women only being able to pat 
down women, and I think that probably leads to some level of 
the frustration that female employees have because they are 
facing those kind of limitations, and room for upward mobility 
that men just don't.
    So I am glad that you are focused on that. Well, I am happy 
to be sitting here with you. I think that you were a great 
choice. I think that your focus on trying to improve the morale 
for your employees is a good goal, and I want to offer that we 
are here to improve your morale, such as it is, because you are 
in a truly thankless job.
    I look forward to seeing you out in Los Angeles when we go 
look at LAX airport on the 18th of this month, and I can assure 
you that we all stand ready to help you in any way that we can.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you. The Chair recognizes Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    Admiral, welcome. I in no way speak for all Members of this 
committee, but for myself, and I suspect that the committee 
Members would agree with this, we wish you success. We want to 
see you succeed and we want to do everything we can to help 
you. I want to touch very quickly on just two things.
    First of all, understand that I represent the coast of 
Georgia, the entire coast of Georgia, and on the coast, we have 
two major ports. We have the Savannah port, which is the No. 2 
container port on the Eastern Seaboard. We also have the 
Brunswick Port, which is the No. 2 roll-on roll-off port in the 
Nation.
    Both of those ports are vitally important, and in both of 
those ports, we use the TWIC cards, the Transportation Workers' 
Identification Credentials, and I want to talk just briefly 
about that, very quickly. It--I would like to read to you some 
examples of situations that have occurred with the TWIC cards 
that I am very concerned about.
    First of all, an individual used a TWIC card to gain access 
to the Norfolk naval station and killed a naval officer. An 
individual drove through a gate at a Coast Guard station and 
threatened to detonate a bomb, demonstrating that a terrorist 
could do the same, and the ineffectiveness of the TWIC program.
    TWIC holders have committed crimes in secure port areas, 
demonstrating TWICs are provided to criminals and can be used 
to commit crimes on ports. The proposed rule making for TWIC 
describes multiple possible terrorist scenarios where the TWIC 
cards will not be effective.
    DHS has failed twice to complete successful pilot programs 
with the TWIC cards. DHS has not completed a reliable analysis 
of the TWIC program's internal controls or effectiveness, and 
finally, GAO has demonstrated the TWIC program's weakness 
through its analysis invert--in covert testing multiple times.
    My question is: What about the TWIC cards? Can it be fixed, 
and if it can, how are you gonna fix it?
    Mr. Neffenger. Well, I mean, you raise a lot of--exactly 
the same questions I have coming into this job. As a former 
member of the Coast Guard, we worked with TSA throughout. We--
as, you know, the Coast Guard implemented the TWIC card reader 
program based upon the rules that were set for the issuance.
    In general terms, here is how I think about identity cards 
like that. One, I want them--first of all, I want them issued 
to a known population, meaning--I want some biometrics on that 
person, I want to be able to run those against databases that 
tell me whether or not I have got a criminal actor, and then I 
want to make sure that the disqualifying factors are the right 
disqualifying factors for holding that card.
    As you know, there was a great deal of discussion about 
what those disqualifying factors should be at the time that the 
TWIC was created, and a lot of groups, longshoremen and others, 
had some concerns about that list, and that was a--that took a 
lot of work to get that list negotiated.
    I think you need to continually look at that to ensure that 
you have got the right features, or the right disqualifying 
factors, identified, and that you are consistent in that 
application.
    The second piece to it is to have it used properly when you 
are attempting to enter a facility, and by ``used properly,'' I 
mean, what aspects of that facility does it give you access to, 
why does it give you access, and how known are you to the 
population. So that is part of the reader issue, and it is also 
part of the procedural and the rules issue.
    As you know, there are--the TWIC card can be coded to give 
you access to different aspects of the facility, some more 
secure than others.
    All of that is my on-going review right now of the program, 
so while I can't specifically answer all of your questions 
today, what I promise you is that over the coming weeks and 
months, I will answer those questions for you, as I get smarter 
about where we--what the current state of play is.
    In your particular instances, I would like more information 
and detail about what you are saying, because----
    Mr. Carter. Right----
    Mr. Neffenger [continuing]. I can look at those 
specifically for you.
    Mr. Carter. Okay, and if I could very quickly, I want to 
follow up on what Representative Katko had mentioned about 
vetting on some of the airline workers specifically.
    In June we had a hearing here, and I was appalled to find 
out that some of the applicants for TSA positions were only 
required to have their last name and first initial and no 
Social Security number. I hope that that has been taken care of 
already since that hearing, and if it hasn't, I hope that the 
first thing you do when you get back is to take care of that.
    Mr. Neffenger. That has--for those specific ones, that 
actually absolutely has been taken care of, and we are moving 
to, as I said, a full name, Social Security number, and clear, 
you know, clear connection to identity, now.
    Mr. Carter. Good. Well, let me finish by repeating what I 
said before. We wish you success, and we want to help you. So, 
thank you, thank you for what you are doing.
    Mr. Chairman, I yield back.
    Chairman McCaul. Thank you. The Chair recognizes Mrs. 
Torres.
    Mrs. Torres. Thank you, Mr. Chairman, and thank you again, 
Admiral, for being here with us today. I have no doubt that 
under your leadership and with your experience, and what it 
sounds like great support from this committee, you will be 
successful at addressing the major concerns that we have seen 
with the TSA, and their responsibility of securing our Nation 
and our ports.
    Today I want to focus on my home airport, Ontario 
International Airport. As you may know, the airport is 
controlled by LAWA, the Los Angeles airport. They have 
oversight and management control of this airport.
    Through my experience not only as a passenger but going on 
a security visit tour of the airport, I want to highlight for 
you today, the concerns that I have.
    Under the agreement, or the arrangement that LAWA has with 
Ontario, they are--LAX is 56 miles away, and they are the ones 
controlling our airport. Ontario Airport's manager is only at 
the airport on a part-time basis. It is a shared position with 
the Van Nuys airport, which is another, you know, hour away, 
depending on traffic.
    LAWA--we used to have a full-time assistant manager, but 
that position was deleted a year ago. The authority--the 
management authority could be very well undermined when that 
manager is not at Ontario Airport, and it is unclear who is in 
charge of the airport when that person is physically not 
present.
    When it comes to technology, the Ontario International 
Airport seems to be lacking. The card reader technology that 
regulates access to the secure areas is inaccurate, meaning 
that employees have no limited accesses to where they can enter 
secure areas. Additionally, many dispatch center security 
monitors at Ontario Airport are non-functioning.
    Ontario Airport gets old fire department equipment from 
LAX, so whatever is deemed inoperable or unwanted at LAX is 
shipped to Ontario Airport, and that is the equipment that our 
folks have to work with.
    When it comes to security, the airport's perimeter, 
security appears to be lacking and needs to be reviewed.
    For example, as a result of a grade separation on the north 
side of the airport, we have had residents able--that were able 
to walk and drive all the way through to the runway without 
being stopped.
    I also have concerns about the training of Ontario Airport 
employees. It appears that the LAX employees do some training 
at the Ontario facility, but it is not clear if our employees 
at Ontario Airport are participating in that training. As you 
can see, I have many concerns about the security of Ontario 
International Airport.
    This is a major problem, because the airport serves 
millions of residents in California, in the Inland Empire. It 
is a hub. It is an engine for our community in the Inland 
Empire.
    My goal here, as I explained to you earlier, is not to pit 
or get into the politics of who owns the airport. My goal here 
today is to ensure that you fully understand the issues and 
concerns that our community has as it relates to security and 
who is managing and who is responsible for the Ontario Airport.
    At this time, I want to invite you to participate in a 
meeting with me to discuss these concerns and to come up with 
solutions to these problems. Would you be willing to discuss 
these issues and visit with me at the airport and also will you 
be willing to work with me and other relevant Federal officials 
to begin to address the tremendous problems that I have seen--
personally witnessed at this airport?
    Mr. Neffenger. Yes, I would be and I look forward to the 
opportunity to talk to you in more depth to understand better 
what the issues are and, more importantly, to visit the airport 
and see for myself what the--what some of these issues are.
    Mrs. Torres. Thank you. I also want to just reiterate that 
I do get the Ontario Airport experience once a week when I go 
home. Yield back.
    Chairman McCaul. Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Admiral, first of all, I would like to thank you for your 
34 years of dedicated service in the Coast Guard, and I 
certainly wish you the best of luck in your new role as the TSA 
administrator. You have got a very difficult job ahead of you.
    As a number of our recent hearings in this committee have 
highlighted, there are some immediate and frankly glaring 
problems that you will need to address in this new role.
    We need to only rewind the clock a few days to underscore 
some of the troubling gaps that exist right now at TSA. I am 
sure that you are obviously aware that 3 days ago, on Sunday, 
at the Dallas-Fort Worth Airport a 26-year-old man was able to 
bypass TSA Security without a boarding pass or any 
identification at all and get on a plane to Guatemala. 
According to the police report, it was only after the police 
were called and the individual left the plane that TSA's 
security became aware of the incident.
    So I want to give you an opportunity to respond to what 
happened at DFW and give us any information that you can about 
your investigation into how a breach of that magnitude was 
possible.
    Mr. Neffenger. Well, I share your great outrage over that. 
As I said before, the checkpoint is a very critically important 
element of a security system and it does form the barrier 
between. So, with that specific case that is under 
investigation right now, I am happy to share the results of 
that with the committee once we see what the specifics were 
that caused that.
    But the bottom line is is that you should not have--it 
should not be easy, it should be impossible for somebody to 
make their way past a checkpoint without being observed and 
certainly should not be possible to get past a checkpoint to 
the point of getting on an aircraft without having known about 
it.
    So we will find out what happened there. But it speaks, as 
I said earlier, to the more systemic question about how we are 
managing our checkpoints. I think it ties right into some of 
the concerns with respect to how we are supporting our front-
line workforce, what the training is, and what the standards 
are that we expect and, as I said, I think we will find out 
what happened there, and I will make sure that we put into 
place the procedures to keep it from happening again.
    It may be question of changing the way those barriers are 
constructed when there is nobody manning a station. It is quite 
often a case that you have in slower periods lines that aren't 
open. I want to know how those are secured during that time and 
what is the protocol for keeping those secure.
    Mr. Ratcliffe. DFW is an airport that I use frequently and, 
obviously, many of the constituents that I represent as well. 
It is obviously one of the busiest airports in the country. Can 
you at least tell us at this point, do you know--is this an 
issue that was specific to the DFW airport or are some of the 
concerns here something that could happen at other airports 
around the country?
    In other words, do you know if this is simply a 
configuration issue or is it a breach of protocol or 
procedures? Can you share any information at this point in 
time?
    Mr. Neffenger. As I said, we are--because it just happened, 
I haven't seen the report of the investigation; the Office of 
Investigations is looking at that right now. I will let you 
know what specifically was the issue here. My suspicion is, is 
that right now it is confined to that specific location in 
Dallas-Fort Worth, but I have ordered a full review across the 
system--I talked to our head of operations at TSA headquarters 
and said, look, I want you to look across the whole system and 
tell me whether we have got issues like this elsewhere. If we 
do, I want to plan for how we are going to address those.
    Mr. Ratcliffe. Admiral, obviously, that unfortunate event 
at DFW highlights the challenges that you face. I certainly do 
wish you luck and I look forward to having you work with this 
committee to improve airport and airline safety in this 
country. Thanks for being with us today.
    I yield back.
    Chairman McCaul. Let me just comment. I thank the gentleman 
for raising this issue. Myself, being from Texas, would like a 
report from the TSA on this incident. It is very disturbing. I 
don't know how he got past security completely untouched and we 
don't know anything about this individual either, I assume at 
this point in time.
    Mr. Neffenger. What I can tell you is that the reports are 
that he was distraught over his girlfriend heading out of town 
and he wanted to stop her, and that is what I know. So it 
looked like a love-gone-wrong at this point. But we will see, 
and I am--certainly, I will share with this committee the--our 
findings on this.
    Chairman McCaul. Okay, thank you so much.
    Mr. Keating is recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    Congratulations, Admiral. Thank you for your service with 
the Coast Guard and thank you for your comments here today. 
Certainly stressing accountability and doing the kind of work 
you did in review. It is a difficult assignment but I think you 
are right on target.
    I just want to concentrate on one area which has been 
something I have brought up for the last several years that 
represents, I think, a tremendous security issue regarding our 
airports and that is the perimeter security issue.
    Dating back from the time I was a district attorney in 
Massachusetts, there was a case of a 15-year-old--young 15-
year-old boy stowing away on a commercial airline from 
Charlotte Douglas and tragically losing his life over Milton, 
Massachusetts, when the landing gear went down. The fact that 
he penetrated that security aroused the concern.
    But we have followed that issue forward and just to put it 
in perspective, from 2001 to 2011, there were 1,388 perimeter 
security breaches in our 450 domestic airports. What is 
troubling, among other things, is that the joint vulnerability 
assessments as the risks seem to be getting greater, are going 
down.
    Just to give you an idea, from 2004 to 2008, there were 60 
of those assessments for our 450 airports. From 2011 to 2013, 
that was reduced to 30 assessments annually. In 2014, only 12 
of those assessments were covered.
    That is--that means 97 percent of our Nation's airports 
weren't reviewed for security risk despite the fact that we 
have had time and time again whether it is in Chicago or 
Philadelphia or Los Angeles or, again, in Charlotte Douglas, in 
New York, we have had these kind of breaches that have 
occurred. Scores of them have been people that have reached 
access to the runway and the airports and their refueling areas 
as well. If a 15- or 16-year-old can penetrate our security--in 
one instance not even go detected after they reviewed it--then 
we are vulnerable.
    If they can do that and stow away themselves, someone with 
a different motivation could stow away an explosive on those 
airlines and not even risk their lives doing it.
    I hesitate to keep saying this publicly because I don't 
want to give people ideas but nothing has been done in terms of 
progress.
    That is why when I wrote you congratulating you on your 
assignment--I was very pleased to get a response--a timely 
response back just this month, I appreciate that--where you are 
identifying this as a priority.
    I just want to ask you where you are going with that 
because it is important and I also--the Chairman and I, when we 
were working together in Homeland, we had a field hearing and 
one thing that was so obvious to us was the fact that there is 
a huge jurisdictional issue at these airports. If things go 
wrong, they end up pointing the fingers at each other.
    They are run by municipal airport organizations, they are 
run by authorities, and this jurisdiction battle unresolved, 
even when the Federal Government comes in and said with these 
assessments, you have things you have to clean up. You have 
dangers that are here. They don't do it and no one seems to 
make them do it.
    So when you are doing that review, the other thing I think 
we have to clear up is this jurisdictional issue and if people 
are going to be safe, they are going from one airport to 
another. They are in the network. So you are only as good as 
your weakest link. We are not even assessing more than 3 
percent of those airports for safety.
    So I want to just give you a minute that is left just to 
try and expand upon what you wrote me about going forward and 
dealing with this issue and to try and deal also with this 
jurisdictional problem that we have.
    Mr. Neffenger. Well, Congressman, you raised a number of 
important issues. Let me start by saying I absolutely agree 
that perimeter security is a concern and, again, I use my 
experience from the port environment, you know, that that was 
one of the biggest challenges we had was trying to understand 
what--first of all, what is the perimeter and what does secure 
mean?
    The joint vulnerability assessments that you mentioned, as 
you know, those are additional kind of multi-agency assessments 
that are done in addition to the annual inspection that is done 
of a system.
    So there is a TSA regulatory requirement that we fulfill by 
inspecting the regulated area of the airport includes a 
perimeter on an annual basis, and then the joint vulnerability 
assessments are designed to see what beyond the perimeter--but 
beyond our immediate jurisdiction might also pose a risk to the 
airport.
    Those are very important in concert. So I want to make sure 
that the ratio of those is correct and I will look at that.
    I also need to attend one of these inspections to find out 
what they consist of. So I intend to do that. Anyone on this 
committee is welcome to join me when I do that and I will make 
the offer to the committee and to the committee Members because 
I am very interested in how we are doing that.
    Again, this is--it goes back to my days trying to figure 
out how to secure port environments. We--it is the same thing 
we did. I said, well, just walk me around and show me what a 
perimeter looks like. What does that mean? You know, how do you 
secure that space? How do you secure that space?
    The jurisdictional issue is key because you are right, 
there is a--you can do the Scarecrow in ``The Wizard of Oz'' 
thing and just point at everybody but yourself when the 
jurisdiction comes.
    So I need to clearly understand, first of all, what are the 
extent of my authorities to direct action, and then what are my 
extent to compel that action if I think it needs to be done?
    Ideally, you do that in a partnership, and you do that 
because it is in everyone's best interest to make sure. From my 
perspective, I think the airports, the airport count, the 
airlines and others, would find it of great benefit to ensure 
that nobody gets on that field that shouldn't be on that field.
    Mr. Keating. Well, thank you, Admiral.
    I must tell you, I am optimistic, given your background in 
the Coast Guard, understanding perimeter issues the way you do, 
that we are going to meet with some success. I look forward to 
working with you. If you could report to myself and the 
committee what your progress will be on this, we deeply 
appreciate it. Thank you. I yield back.
    Chairman McCaul. Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    Congratulations to you, Admiral. You are very encouraging, 
and it seems that you have taken this assignment on with all 
high expectations, and with respect to those that get the job 
done, on behalf of all of us. So thank you.
    I just have a couple of little questions. No. 1 has to do 
with the Federal Air Marshal Service. My understanding is that 
there hasn't been a class, a recruitment, for nearly 4 years. 
So I am wondering, do you have any plan to address the 
attrition that this might represent? Are they still as 
necessary? Or is there something that is replacing the need for 
them?
    Mr. Neffenger. Well, thank you for that question. As you 
know, we have a new director of the Federal Air Marshal 
Service, Director Rod Allison. I am really encouraged and 
enthusiastic about his approach, because he has come in with a 
very innovative and fresh set of eyes to look across the range 
of missions of the Federal Air Marshals.
    I believe that there is still value in having the Federal 
Air Marshal Service. I believe that they perform valuable 
missions. But I believe that those missions have changed over 
time. Director Allison is addressing some of those changes.
    As you know, they work a wide variety of missions, not just 
the aviation mission that most people are familiar with. But 
they also work on our VIPR teams, they serve in Joint Terrorism 
Task Forces, and they bring a unique credentialed law 
enforcement perspective to--in thinking about the 
transportation role to those worlds.
    That said, we have not hired for a long time in the Federal 
Air Marshals. We have a request in our fiscal year 2016 budget 
to begin hiring process. That is an aging workforce. Fifty-
seven is mandatory retirement. Over the course of the next 5 
years, we will see some--I think the number is--I will get it 
exact for you, but we will see some 30 percent of that 
workforce begin to age out.
    You need to--when you have a law enforcement agency, a 
Federal agency, you need to refresh it. We need to grow new 
people into it. So I am hoping that our fiscal year 2016 budget 
request will be met favorably. I hope that we can begin to hire 
into the attrition that we are seeing; and more importantly, 
grow a new workforce into that as that mission changes over 
time.
    Mrs. Watson Coleman. Thank you. Another area that struck 
me, as I was preparing for today, has to do with the Secure 
Identification Display Area cards, the credentials. I 
understand that on occasion, individuals who have had access to 
those cards have done things which were illegal, and which just 
were not acceptable.
    So I was wondering, what is the--what are your plans with 
regard to greater accountability of those cards?
    Mr. Neffenger. Well, I think accountability is the key. As 
we were discussing earlier, you have a known--what should be a 
known and trusted population that you give those cards to. They 
do get vetted for criminal background history, and they get 
looked at continuously for potential nexus to terrorism.
    That said, we also know that even in known and trusted 
populations, you can have criminal activity that occurs. We 
have seen enough evidence of that over the past year.
    So one of the things that came out of the incidents that 
were--or the arrests at Atlanta last year for the drug-
smuggling ring that was discovered, was the request by the 
secretary of the Aviation Security Advisory Committee to take a 
hard look at the insider threat problem and the use of badges. 
They came out with 28 recommendations as a result of that.
    We have accepted all 28 of those recommendations, and we 
are working very closely to implement those over time. A number 
of those were done immediately. Accountability was one of the 
ones that was done immediately.
    I am very concerned about accountability for--it doesn't 
surprise me that people can periodically lose their badges or 
misplace them, but there needs to be a process for an immediate 
notification, for an immediate shutting down of that badge, and 
then take whatever action is necessary in the event it was done 
in a deliberate or intentional manner.
    Mrs. Watson Coleman. Thank you, Admiral. You have a big 
task ahead of you. I wish you the best of luck, and I hope that 
we can be helpful to you in what you need on our behalf. Thank 
you.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you. Let me close by saying I think 
the Secretary chose the right man for the job. We have enjoyed 
our conversations over the past several days. I look forward to 
working with you to improve both the safety of our airports, 
and also making it more passenger-friendly.
    The committee Members may have additional questions in 
writing. Pursuant to the committee rules, the record will be 
held open for 10 days. Without objection, the committee stands 
adjourned.
    [Whereupon, at 11:30 a.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Hon. Scott Perry for Peter V. Neffenger
    Question 1a. Public service is a public trust and many Americans 
are concerned about pervasive misconduct by TSA personnel. 
Congressional watchdogs have raised alarms about TSA's lack of focus on 
misconduct. Specifically, a 2013 GAO report entitled, TSA Could 
Strengthen Monitoring of Allegations of Employee Misconduct states 
``TSA does not have a process to review misconduct cases; therefore it 
is unable to verify whether TSA staff is complying with policies and 
procedures for adjudicating employee misconduct.''
    Last week, my subcommittee staff requested data from fiscal year 
2013-2015 on the number of TSA investigated and adjudicated misconduct 
cases. TSA told my staff they would have to do data calls to all 
airports for the information.
    Do you find it troubling that TSA does not maintain data on 
employee misconduct?
    Answer. The Transportation Security Administration (TSA) maintains 
data on employee misconduct and is committed to the highest standards 
of public trust. TSA actively retains employee misconduct data within a 
centralized case management system, or Integrated Database, commonly 
known as the Employee Relations Case Management (ER CM) System. The 
data requested from fiscal year 2013-2015 on the number of TSA 
investigated and adjudicated misconduct cases was provided to 
subcommittee staff on July 29, 2015.
    The Government Accountability Office (GAO) requested and analyzed 
data associated with fiscal years 2010 and 2012 and retrieved from the 
TSA ER CM, in its 2013 Report 13-624 entitled, TSA Could Strengthen 
Monitoring of Allegations of Employee Misconduct. Following its 
analysis of TSA misconduct data, the GAO report indicated that ``47 
percent of the cases that GAO analyzed resulted in letters of 
reprimand, which describe unacceptable conduct that is the basis for a 
disciplinary action; 31 percent resulted in suspensions of a definite 
duration; and 17 percent resulted in the employee's removal from TSA. 
The remaining cases covered a variety of outcomes, including indefinite 
suspensions.''
    Question 1b. Why doesn't TSA have an ability to track misconduct, 
considering how pervasive misconduct has been?
    Answer. TSA has the ability to track misconduct and uses its 
centralized case management system, ER CM, to continuously monitor and 
track allegations of misconduct.
    Question 1c. What are your plans to fix this problem?
    Answer. TSA will continue to capture and track employee misconduct 
information using its current ER CM centralized case management system. 
Additionally, TSA has increased management oversight of the 
investigative and adjudicative processes, and is taking action to 
develop and implement procedures in four areas to strengthen monitoring 
misconduct cases, as highlighted by the GAO Report. Specifically, the 
2013 GAO Report provided four recommendations for improving TSA's 
management and oversight of efforts to address allegations of employee 
misconduct:
    1. TSA should establish a process to conduct reviews of misconduct 
        cases to verify that TSA staffs at airports are complying with 
        policies and procedures for adjudicating employee misconduct.
    To address this recommendation, TSA currently utilizes a Management 
        Control Objective Process to periodically audit misconduct 
        cases. The audit is designed to mitigate risk and ensure that 
        TSA staff responsible for adjudicating misconduct issues are 
        compliant with internal TSA policy and procedure. These audits 
        are conducted by the Office of Human Capital, Employee Relation 
        Branch, at a minimum, twice annually.
    2. TSA should develop and issue guidance to the field clarifying 
        the need for TSA officials at airports to record all misconduct 
        case outcomes in the Integrated Database (ER CM).
    TSA has revised its case management guidance for field users to 
        require that all corrective, disciplinary, and adverse actions 
        must be recorded into the ER CM for all employees. 
        Additionally, customized training is provided to field users to 
        further educate on the ER CM process.
    3. TSA should establish an agency-wide policy to track cycle times 
        in the investigations and adjudications process.
    TSA developed agency-wide policies, which identify process areas 
        needing improvement, and developed new data fields that have 
        been incorporated into the Integrated Database to track cycle 
        times.
    4. TSA should develop reconciliation procedures to identify 
        allegations of employee misconduct not previously addressed 
        through adjudication.
    TSA Employee Relations, in the Office of Human Capital, is 
        responsible for overseeing and reviewing disciplinary actions 
        handled by TSA management at airports, as well as managing the 
        ER CM. TSA is developing guidance that will capture final 
        outcomes within the ER CM for cases which are: (1) Opened for 
        investigation, (2) adjudicated with a penalty outcome, or (3) 
        adjudicated with no penalty outcome. This change in the TSA 
        internal process will strengthen managerial oversight, assist 
        with reconciling process gaps, and ensure that TSA maintains 
        complete institutional records associated with the 
        investigative and adjudication processes.
    Question 1d. With TSA employee misconduct an on-going and egregious 
issue, what are you doing to ensure that misconduct cases are taken 
seriously and handled accordingly?
    Answer. In addition to the above, TSA continues to provide training 
tools that will better prepare agency managers and supervisors to 
accomplish TSA's security mission, manage employees effectively, and 
understand the agency's expectations related to conduct and 
performance. For example, TSA has developed and implemented a process 
to evaluate and analyze cases to ensure that airports comply with 
policies and procedures for adjudicating employee misconduct. On a 
monthly basis, TSA evaluates compliance with requirements, identifies 
areas for improvement, discusses trends and best practices with 
airports as appropriate, and briefs Senior Leadership on these trends 
to ensure continued compliance with policies and procedures.
    Question 2a. The Federal Air Marshal Service is the primary law 
enforcement entity of the TSA--deploying air marshals on domestic and 
international flights to detect, deter, and defeat hostile acts 
targeting U.S. air carriers, airports, passengers, and crews. According 
to TSA, ``successful accomplishment of the Federal Air Marshal's 
mission is critical to civil aviation and homeland security.'' However, 
a 2015 news report highlighted an investigation into a FAMS flight 
coordinator who manipulated the system and ``used her position to look 
up personnel files, identification photographs and flight schedules to 
pinpoint air marshals she was interested in meeting and possibly 
dating.''[1][sic] This is just one recent example. Reports of 
misconduct within FAMs are nothing new; in 2012, the Inspector General 
also examined misconduct allegations in FAMS and made 12 
recommendations for TSA.
    How have TSA personnel that were involved in this misconduct been 
held accountable?
    Answer. This matter is under investigation with the potential for 
criminal prosecution. At the close of the investigation, the 
appropriate action will be administered by the Transportation Security 
Administration (TSA) for any employee identified in the investigation 
to have committed a violation of law, regulation and/or policy, up to 
and including removal, or forwarding for prosecution.
    The TSA holds all of its employees to the highest standard of 
professional and ethical conduct. Accusations of misconduct are 
investigated thoroughly and, if substantiated, appropriate action is 
taken. The vast majority of TSA personnel are hardworking individuals 
who perform with integrity each and every day. As an agency, TSA 
strives to instill a culture of accountability throughout the 
workforce. While TSA will not comment publicly on internal disciplinary 
actions, the agency has zero tolerance for misconduct or discrimination 
in the workplace.
    Question 2b. What safeguards are in place to make sure an 
occurrence like this is not possible in the future?
    Answer. TSA employees are required to complete annual Employee 
Responsibilities and Code of Conduct training in accordance with TSA 
Management Directive (MD) 1100.73-5. This policy requires employees to 
report ``any known or suspected violation of law, rule, regulation, 
policy, or Standard Operating Procedure by a person to any manager in 
the chain of supervision and/or to the Office of Inspection (OOI).'' 
Furthermore, Office of Law Enforcement/Federal Air Marshal Service 
(OLE/FAMS) personnel are required to annually certify and acknowledge 
the OLE/FAMS 1112 Employee Responsibilities and Conduct policy at the 
beginning of the employee's performance review.
    In addition, TSA established a new Assessments and Evaluation Unit 
(AEU) in December 2014, whose primary focus is to monitor and ensure 
quality assurance checks are conducted in all facets of the FAMS 
Systems Operation Control Section (SOCS). To achieve the highest 
standard of controls, AEU has placed concentrated efforts on the 
following mitigation efforts:
  <bullet> Implementation of a quality control call system to observe 
        employees for compliance with their Standard Operating 
        Procedures;
  <bullet> Addition of extensive audit reports to the Airline 
        Reservations System to identify possible fraudulent activity;
  <bullet> Methodical training of the SOCS Management team on 
        analytical techniques to identify possible fraudulent activity 
        made within the FAMS scheduling system.
  <bullet> Review of all Standard Operating Procedures within the SOCS; 
        and
  <bullet> Implementation of restrictive controls on all system 
        accesses with a focus on the Airline Reservations System to the 
        FAMS Scheduling Application.
    To date, AEU has reviewed over 13,000 aircrews schedule changes and 
over 1,100 reservation changes with no identified fraudulent 
activities. Over 3,300 access control profiles on the Airline 
Reservations System were reviewed and the required accesses verified.
Questions From Ranking Member Bennie G. Thompson for Peter V. Neffenger
    Question 1. Since 2007, we have spent over $700 million on the 
Behavior Detection Officers program. As you know, the Government 
Accountability Office noted that this program could not be 
scientifically validated, and even suggested that Congress consider 
limiting funding for the program. What are the plans for Behavioral 
Detection Officers going forward?
    Answer. The Behavior Detection and Analysis (BDA) Program is an 
integral part of the Transportation Security Administration's (TSA's) 
security program; providing real-time threat assessments based on 
behavior pattern recognition techniques that detect behavior indicators 
and suspicious activities that deviate from an established 
environmental baseline.
    TSA strongly disagrees with the Government Accountability Office 
(GAO) assertion that the program is ineffective, and non-concurred with 
the recommendation to limit funding. In 2007, in an effort to validate 
TSA's behavior observation techniques, the Department of Homeland 
Security engaged the American Institutes for Research to examine the 
validity of the program in the context of checkpoint screening. The 
study's findings revealed that TSA's program is 9 times more effective 
than random selection at identifying high-risk passengers. In 2012, TSA 
initiated further review of its Behavior Detection program contracting 
with an independent third party to determine the optimal categorization 
of indicators. The substantiated and revised set of behavior indicators 
use the most current behavior detection research from the scientific 
community.
    There are many examples of behavior detection strengthening TSA's 
security posture. The following cases illustrate the vital layer of 
security that Behavior Detection Officers (BDOs) provide:
  <bullet> In Buffalo (BUF), in 2009, Behavior Detection Officers 
        (BDOs) referred a passenger and his traveling companion for 
        additional screening, and discovered $9,500 in U.S. currency, 
        and that the passengers were traveling from BUF to New York 
        (JFK) en route to Yemen. In July 2015, one of these passengers 
        was charged with attempting to provide material support to 
        ISIL. While the BDO referral did not lead directly to arrest, 
        the additional screening received based on referral ensures the 
        passenger was not traveling with dangerous items on that trip.
  <bullet> In New York (JFK), BDOs referred a passenger for additional 
        screening due to suspicious behaviors, and discovered suspected 
        fraudulent DEC and NYPD badges, and a police jacket in the 
        passenger's carry-on bag. Port Authority Police responded and 
        interviewed the passenger, who stated he was going to Haiti on 
        police business. Law Enforcement Officers (LEOs) confiscated 
        the badges and arrested the passenger on a state charge of 
        impersonating an officer. Also at JFK, BDOs engaged a passenger 
        who turned out to be an insider who was attempting to 
        circumvent security. BDOs determined that the passenger had a 
        carry-on bag that was transported through the Known Crew Member 
        entrance by a flight attendant. LEOs located the flight 
        attendant, who was rescreened with the accessible property and 
        denied boarding. On 10/3/2015, at JFK, BDOs engaged an 
        individual in a security-related question that exposed an 
        attempt to circumvent the screening process by an airline 
        employee. Based on the interaction, BDOs were able to determine 
        that the passenger had a carry-on bag that was provided to a 
        flight attendant, whom attempted to transit through the Known 
        Crew Member entrance circumventing screening. LEOs were 
        notified, identified the flight attendant whom was rescreened, 
        and denied boarding.
  <bullet> In Orlando (MCO), BDOs observed a passenger behaving 
        suspiciously during the check-in process. When the passenger 
        presented his checked baggage to the airline, the BDOs referred 
        the bags for secondary screening. During the checked baggage 
        screening, TSOs discovered a battery, wires, an end cap pipe 
        with holes in it, lighter fluid, and literature detailing how 
        to build explosive devices. TSOs also discovered two bottles 
        containing a blue liquid which tested positive for TNT. The FBI 
        charged the individual with attempting to introduce an 
        explosive or incendiary device on an aircraft.
    In addition, TSA has realigned Behavior Detection Officers (BDOs) 
to higher-risk airports, while reducing the full-time BDO footprint 
from 122 airports to 87 airports using a risk-based staffing model. The 
fiscal year 2016 President's request includes a 15 percent reduction in 
BDOs from 3,131 to 2,660 to align to this staffing model. It is 
important to note that approximately 97 percent of the Behavior 
Detection and Analysis Program's budget goes toward officer personnel 
costs and benefits. To offset this reduction, TSA created a spectrum of 
capabilities where a certain number of existing TSOs receive behavior 
detection training and certification. The certified TSOs conduct 
traditional screening 80 percent of the time per pay period, and 20 
percent of the time conduct behavior detection-related functions to 
support TSA's risk-based security initiatives. The multi-function 
capability provides lower-risk airports with behavior detection 
mitigation tools where otherwise the risk model would not have 
dedicated a full-time behavior detection capability.
    Question 2. Administrator Neffenger, TSA is most visible and 
receives the most attention surrounding its efforts to secure 
commercial aviation from attacks, such as those perpetrated on 
September 11, 2001. Although the budget for surface activities has 
grown, it is still relatively small when compared to that used to 
address commercial aviation activities. With the threats to our Nation 
constantly evolving, and encompassing other modes of transportation 
outside of commercial aviation, how do you plan to address threats that 
possibly target other modes of transportation?
    Answer. The Transportation Security Administration (TSA) has a 
strong focus on commercial aviation where demonstrated risk is the 
highest, and the Federal role is more prevalent. In the non-aviation 
sector, TSA has an active and growing partnership role in reducing risk 
in all surface modes and is dedicated to an intelligence informed risk-
based approach to security.
    TSA's role in surface is focused primarily on oversight, voluntary 
compliance, cooperation, and to a lesser extent, regulation. TSA could 
not accomplish this essential mission without our partners voluntarily 
adopting security improvements and sharing best practices with each 
other and with us. This collaborative ``whole community'' approach 
ensures that resources are applied efficiently to have the highest 
efficacy in reducing risk. Collaboration happens both informally on a 
day-to-day basis, and through formal structures like the Department of 
Homeland Security (DHS)-led Critical Infrastructure Partnership 
Advisory Council framework, Sector Coordinating Councils, and other 
industry-centric organizations, such as the Mass Transit Policing and 
Security Peer Advisory Group (PAG). Our participation in forums such as 
the annual Mass Transit and Passenger Rail Security and Emergency 
Management Roundtable, and our continuing work with the PAG enable us 
to understand the security needs of our domestic and international 
security partners, to better tailor our programs and resources to meet 
critical needs. We also work very closely with our stakeholders in the 
development and dissemination of recommended practices, such as 
Security Action Items (SAIs) for mass transit, highway, and freight 
rail; motor-coach security best practices; and the Pipeline Security 
Smart Practice Observations.
    TSA also plays a role in surface transportation security through 
voluntary assessments and regulatory compliance inspections. Both mass 
transit and freight rail providers operate within TSA regulatory 
oversight. We conduct 10,000 regulatory inspections of freight 
railroads each year on rail cars carrying Rail Security Sensitive 
Materials. TSA also conducts voluntary assessments of security programs 
and plans on the 100 largest mass transit and passenger rail systems 
(based on passenger volume), which account for over 95 percent \1\ of 
all users of public transportation, through the Baseline Assessment for 
Security Enhancement (BASE) program. The BASE program is a thorough 
security assessment of mass transit and passenger rail systems 
nationally. Results of these assessments, as well as similar 
assessments and analyses in all the surface modes, guide the 
development of risk reduction plans and initiatives to provide our 
security partners with a menu of risk mitigation options they can 
implement based on threat and their specific capabilities.
---------------------------------------------------------------------------
    \1\ American Public Transportation Association Average Daily 
Ridership Statistics http://www.apta.com/resources/statistics/Pages/
default.aspx.
---------------------------------------------------------------------------
    TSA recognizes those agencies that have performed exceptionally 
well in their assessment during the fiscal year with a Gold Standard 
award. The criterion for achieving the Gold Standard in security is to 
attain high scores across all 17 categories of assessment, with no one 
category receiving a low score that may indicate a potential 
vulnerability.
    As part of its surface transportation security responsibilities, 
TSA manages vetting programs for specific surface modes. Specifically, 
TSA's Hazmat Endorsement Program has vetted over 2.8 million commercial 
drivers of hazardous materials since its inception in January of 2005. 
Similarly, TSA's Transportation Workers Identification Credential 
Program has vetted over 3.3 million transportation workers seeking 
access to secured maritime facilities since its inception in October of 
2007.
    TSA's partnership with stakeholders extends to voluntary security 
guidance, exercises, and training programs implemented in surface 
modes. TSA has conducted thousands of security assessments, provided 
security enhancement guidance, and conducted security training and 
exercises. Through close work with our partners, we develop resources 
for security training and exercises, such as TSA-produced training 
modules and the DHS-sponsored ``Run, Hide, Fight'' Active-Shooter 
training. We also have the TSA First Observer<SUP>TM</SUP> program, 
which trains highway professionals to observe, assess, and report 
potential security and terrorism incidents. We also feel that practice 
through exercises is exceedingly important. As such, we collaborate 
with industry through our Intermodal Security Training and Exercise 
Program (I-STEP) to help surface entities test and evaluate their 
security plans and ability to respond to threats with other first 
responders.
    TSA also continues to work with the intelligence community, and 
shares relevant information in a timely manner with public and private 
stakeholders to enhance preparedness and vigilance. TSA has also 
coordinated the distribution of security-bolstering grant funds to 
hundreds of entities when available, and provides operational security 
assistance to industry security partners in the form of explosive 
detection canines, screening support, and Visible Intermodal Prevention 
and Response teams.
    TSA has a strong partnership with the DHS Science and Technology 
(S&T) Directorate. S&T has a dedicated program focused on countering 
the explosive threat in the mass transit system.
    Question 3. Administrator Neffenger, are there plans to evaluate 
other technologies outside of those already in use at checkpoints 
throughout our Nation's airports?
    Answer. The Transportation Security Administration (TSA) continues 
to work with the Department of Homeland Security's Science and 
Technology Directorate (DHS S&T) and international partners to 
understand what existing and emerging technologies are available. TSA 
routinely posts Requests for Information (RFIs) and targeted Broad 
Agency Announcements on the Federal Business Opportunities website 
(www.fbo.gov). Through these requests, TSA is able to solicit industry 
for input on the technological landscape.TSA is also working with DHS 
S&T to further the ``Screening at Speed'' initiative, which aims to 
develop the next generation of screening technology.
    In addition, TSA recently released its Strategic Five-Year 
Technology Investment Plan, which aims to achieve a shared vision among 
Congressional, industry, Department of Homeland Security (DHS), and TSA 
stakeholders to address security technology needs, deploy cutting-edge 
security capabilities, and increase efficiency and security 
effectiveness in American aviation security. The plan builds on the May 
2014 TSA Strategic Capability Investment Plan, which was the product of 
engagement with industry and was published in the interest of helping 
stakeholders understand the Agency's direction to align investments and 
product development initiatives accordingly.
    The plan provides a cohesive approach for the development and 
successful transition of security technology solutions, and it lays the 
foundation for future innovation and meets the immediate technology 
demands of specific mission needs. TSA and the DHS S&T define research 
and development goals and objectives to closely align investments with 
TSA mission needs in efforts to drive tangible solutions and 
innovations in transportation security.
    The plan is an important step to foster mutually-beneficial 
dialogue and collaboration with industry, academic, and Federal 
Government partners.
    Question 4. Administrator Neffenger, within the past year, there 
have been recurring reports of incidents in which nefarious characters 
are using their secure identification display area (SIDA) credentials 
to bypass screening, and board commercial aircraft with weapons, or 
what they believed to be illegal substances. Given these instances, and 
the fact that the airport is responsible for these badges, is there any 
plan to give greater accountability to the credentialing process by 
possibly having a universal SIDA badge issuance, status, and recovery 
process for which the TSA would have responsibility?
    Answer. Each Federally-regulated airport is accountable under Title 
49 Code of Federal Regulations Part 1542 to have an access control 
program to limit access to certain parts of the airport to those 
individuals who require access to do their jobs. These airport access 
control programs vary with the unique requirements of each airport 
(e.g., infrastructure, geography, size, proximity to urban areas, 
etc.). Notwithstanding the otherwise unique requirements of each 
airport, they must meet the Transportation Security Administration's 
(TSA) standards for vetting individuals, which are the same Nation-
wide.
    Based upon statutory and regulatory requirements, vetting performed 
by TSA includes an intelligence-related check of Governmental 
databases, including recurrent vetting against the Terrorist Watch 
List; immigration status check; and a fingerprint-based criminal 
history records check based on information from the FBI. Airport and 
aircraft operators are responsible for adjudicating the results of the 
criminal history records check against the list of 28 disqualifying 
crimes contained in 49 CFR 1542.209, determining the applicant has a 
legal right to work in the United States, and issuing the badge. 
Additionally, Security Directive 1542-04-08J requires airports to 
resubmit fingerprints for a new criminal history records check every 2 
years, or upon badge renewal by the airport, whichever comes first, and 
to adjudicate the results to ensure no disqualifying crimes have been 
committed.
    Following the discovery and publicized arrests by law enforcement 
of a weapon smuggling ring at Hartsfield-Jackson Atlanta International 
Airport in December 2014, TSA requested the Aviation Security Advisory 
Committee (ASAC) to examine options to address the vulnerability 
highlighted by the criminal activity. On April 8, 2015, the ASAC 
submitted its final report with 28 recommendations to improve the 
control of employee access to restricted areas in our Nation's 
airports.
    With regards to SIDA badge inventory, the ASAC did specifically 
recommend that TSA create and maintain a National database of employees 
who have had their SIDA badges revoked for cause. The security benefit 
of a ``revoked badge'' database would be awareness of individuals, who 
were removed for cause from access to one airport would be identifiable 
to another airport if they sought further airport employment elsewhere. 
While that capability does not currently exist, TSA is evaluating the 
feasibility of such a TSA-managed National database, which may 
strengthen the credentialing process Nation-wide. TSA will establish an 
Agency-stakeholder working group to explore options for providing a 
National database. TSA began this process in June. Still, there are 
significant issues involved, ranging from technological aspects to 
privacy and civil liberties, which must be fully addressed. Areas of 
review will cover policy, operational processes, technical 
modifications, and possible clearinghouses to support the effort.
    While TSA examines the possibility of creating a National database, 
the agency will continue to exercise its oversight of compliance with 
the regulatory requirements. Each Federally-regulated airport remains 
strictly accountable to TSA under Title 49 Code of Federal Regulations 
Part 1542 to have an access control program to limit access to certain 
parts of the airport to those individuals who require access to do 
their jobs. TSA inspects to ensure strict compliance by individual 
airport operators with badge issuance, accountability, and deactivation 
requirements.
    Question 5. Part-time TSOs have reported to their union an increase 
in mandatory overtime at some airports to address operational needs. As 
I understand it, TSA can currently increase a part-time TSO's hours up 
to 32 hours per week for 13 consecutive pay periods. It is difficult to 
square annual staff reductions with recurring mandatory overtime for 
part-time TSOs. Why not hire additional full-time TSOs to provide the 
coverage needed at these airports?
    If it is a question of adequate appropriations, do you intend to 
request additional funds?
    Answer. The Transportation Security Administration (TSA) depends on 
part-time employees to efficiently meet day-to-day surges in passenger 
traffic. Over the last 2 years, TSA has shifted to a higher percentage 
of full-time employees through improved management of workforce 
training and scheduling. Based on the current staffing model, there is 
a need for a part-time workforce to complement the full-time workforce 
and provide the ability to flex staffing levels during high-volume 
hours. TSA continues to monitor and evaluate its staffing requirements 
and their corresponding costs.
    Question 6. TSA has announced savings from reductions in 1,441 TSO 
positions based on efficiencies from risk-based screenings. Knowing 
that you are only a few weeks into this position, I would be interested 
in the number of management and administrative positions being 
eliminated by risk-based screening?
    Answer. As the Transportation Security Administration (TSA) 
implemented risk-based security initiatives, operational positions were 
reduced, and TSA also took commensurate and proportional reductions in 
managerial and administrative staff. The reduction of 1,441 employees 
consisted of 1,368 Transportation Security Officers and 73 management 
and administrative positions in fiscal year 2015. In an effort to 
support this reduction, TSA completed a thorough review of field 
staffing requirements at each hub and spoke airport. Following the 
review, 120 hubs were reduced to 77 hubs, which resulted in a 
consolidation of resources and reductions in the number of Federal 
Security Director (FSD) staff as well as administrative staff. 
Additionally, TSA has an FSD Staffing Model which is based on 11 inputs 
used to determine the complexity (such as hours of operation, number of 
terminals, and number of checkpoints) in combination with the staffing 
headcounts to identify administrative staffing requirements.
    Our recent analysis of the covert testing root causes has led us to 
reassess the reductions projected for fiscal year 2016. As we rebalance 
our operational focus on increased effectiveness, it will be important 
to sustain our force size at or above fiscal year 2015 levels in order 
to avoid jeopardizing our ability to improve checkpoint screening 
operations.
    Question 7. It is essential that TSOs receive active-shooter 
training that reflects a unique attack at an airport checkpoint, as 
opposed to an attack on an office building. Disturbingly, TSOs at some 
airports report that they have had no active-duty training other than a 
video reflecting an attack on an office building and have not 
participated in multi-disciplinary drills at the airport. It has been 
nearly 2 years since the attack on LAX that cost TSO Hernandez's life. 
Given your limited time on the job, can you give us an update regarding 
active shooter training?
    Answer. Since the tragic event at Los Angeles International Airport 
(LAX) on November 1, 2013, the Transportation Security Administration 
(TSA) has implemented multiple active-shooter training events, which 
all TSA employees have completed. In addition, immediately following 
the event, TSA mandated that all TSA employees review readily available 
active-shooter training videos by March 31, 2014. The videos were from 
the Federal Emergency Management Agency and the Houston Police 
Department; both videos reflected an attack in an office environment.
    During this time, the TSA Office of Law Enforcement/Federal Air 
Marshal Service (OLE/FAMS) and Office of Training and Workforce 
Engagement (OTWE) developed Active Threat Recognition & Response 
Training. The purpose was to provide the TSA workforce an understanding 
of their role in recognizing and responding to an active threat 
incident in each type of location where TSA employees work, to include 
airport checkpoints, baggage areas, airport air operations areas (AOA), 
and the office. This was instructor-led training, with the Assistant 
Federal Security Director-Law Enforcement as the primary instructor, 
and included table-top exercises/discussions. This training was 
released in June 2014 and had a completion date of December 31, 2014.
    During 2014, TSA also developed a new training product, titled 
``Active Shooter Incident Response Training,'' for active-shooter 
incidents specifically depicting an airport environment. The training 
was designed to reinforce the widely-accepted active-shooter response 
reactions of ``Run-Hide-Fight,'' and built upon the materials presented 
in the previously completed training courses. The interactive training 
video was filmed in its entirety at the Indianapolis airport with the 
support and participation of multiple airport tenant organizations to 
include local airport officials, law enforcement officers, and TSA 
personnel. The training included information that would help the 
workforce:
  <bullet> Recognize how to respond when an active shooter is in their 
        vicinity; and
  <bullet> Identify how to interact with Law Enforcement Officers who 
        are responding to an incident.
    In January 2015, TSA released the training video with a required 
completion date of March 31, 2015; to date over 54,000 TSA employees 
have completed the training, to include 47,500 members of the officer 
workforce. TSA has mandated that this be an annual training requirement 
for its workforce. During the March 2015 incident at Louis Armstrong 
New Orleans International Airport (MSY), one of TSA's Supervisory TSOs 
was attacked by an assailant wielding a machete, and was grazed by a 
bullet as a Jefferson Parrish Sheriff's Deputy fired shots during the 
attack. Additionally, the assailant sprayed wasp repellent at three 
other TSA Officers, minimizing their capacity to react. It was during 
post-incident discussions with TSA's team at MSY that TSA learned that 
the team specifically attributed their survival to the ``Active 
Shooter'' training that they had received.
    Additionally, TSA has distributed over 500 copies of the ``Active 
Shooter Incident Response Training'' to airport directors, comprising 
both private-sector and local public-sector entities, and encouraged 
them to provide the airport-specific training to airport and airline 
employees. TSA has also shared the training video with several other 
Government agencies, as well as representatives of aviation authorities 
from France and Germany.
    TSA has also incorporated an actual ``Active Shooter'' exercise 
into its Essentials of Leading Screening Operations (ELSO) course 
delivered at the TSA Academy at FLETC Glynco, GA. This provides an 
opportunity for all Lead TSOs, of which TSA has approximately 6,000, to 
experience a drill that is facilitated at the FLETC Intermodal 
Transportation Training Building (No. 811) by TSA's Federal Air 
Marshals (FAMS). The exercise has been praised as a true learning 
experience for those who have participated, allowing them to experience 
the sound and impact associated with a would-be attack, followed by a 
review of what they experienced and discussion of how to prepare 
themselves for any event similar to the training exercise. While TSA 
has no immediate plans to replicate this exercise outside of the TSA 
Academy, it is an exercise that TSA will continue to include in a 
number of different courses that will be coming to the TSA Academy over 
the next several years.
    Question 8a. In the wake of the Inspector General's covert testing 
results being leaked, Secretary Johnson appointed a ``Tiger Team'' of 
DHS and TSA officials to monitor the implementation of reforms the 
Secretary announced. It is my understanding from press releases issued 
by DHS that the ``Tiger Team'' provides the Secretary with status 
reports on a rolling 2-week basis.
    Did you have any input into who would comprise the Tiger Team?
    Answer. The Transportation Security Administration (TSA) Tiger Team 
was established in early June 2015, which preceded my confirmation and 
official swearing in on July 4, 2015. Subsequent to my confirmation, I 
have closely reviewed the composition of the team and the process they 
are using to assess root causes of the screening failures. I fully 
support these efforts.
    Question 8b. Are you receiving the same status reports from the 
Tiger Team that the Secretary is receiving?
    Answer. Yes, I closely oversee these efforts and personally 
participate in the updates to the Secretary.
    Question 8c. How will the Tiger Team's success or failure be 
judged?
    Answer. We are reassessing our strategic measures of effectiveness 
and intend to refine our focus on a security proposition that values 
both effectiveness and efficiency. The success of our efforts to 
correct the problems identified will be judged by the improved 
performance and effectiveness of our workforce in detecting and 
disrupting prohibited items in our checkpoint screening operations. We 
will continue to use our own covert testing and performance testing to 
evaluate these improvements, as well as macro assessments of our system 
effectiveness using a range of analytical tools.
    Question 9. Administrator Neffenger, fiscal year after fiscal year, 
the number of Transportation Security Officers decreases due to the use 
of risk-based screening initiatives. I am concerned that with such an 
important mission, the ranks of TSOs could become so thin that the 
mission is inadvertently hampered. I know that you are about 4 weeks 
into your current role, but could you speak on this as much as you can, 
and commit to revisiting this issue with the committee in the future?
    Answer. Over the past 5 years, the Transportation Security 
Administration's (TSA) budget has included multiple efficiencies, with 
the largest coming from Risk-Based Screening (RBS) savings identified 
in the fiscal year 2015 and fiscal year 2016 requests, totaling 3,491 
Full-Time Equivalents and $239 million. As a result of the findings 
from the recent Department of Homeland Security's (DHS) Office of 
Inspector General (OIG) covert testing on TSA checkpoint operations, 
TSA is aggressively working to determine the proximate root causes of 
the covert testing failures and provide effective system-wide 
solutions, which may include adjustments to staffing levels.
    Our recent analysis of the covert testing root causes has led us to 
reassess the reductions projected for fiscal year 2016. As we rebalance 
our operational focus on increased effectiveness, it will be important 
to sustain our force size at or above fiscal year 2015 levels in order 
to avoid jeopardizing our ability to improve checkpoint screening 
operations.
    Looking forward, I can assure the committee that TSA will 
continually evaluate the staffing requirements and revisit this issue 
as needed.
    Question 10. Administrator Neffenger, last week, the Transportation 
Security Subcommittee marked up three bills; HR 3102, the Airport 
Access Control Security Improvement Act of 2015; HR 3144, the Partners 
for Aviation Security Act; and a Committee Print for a reform and 
improvement act, which is intended to be a reauthorization. I believe 
that prudence dictates that we hear your vision and priority for TSA 
before marking up legislation such as the Committee Print. With that 
being said, these pieces of legislation need work as they move forward 
toward full-committee consideration. Will you work with us to address 
issues with these pieces of legislation, such as those brought about by 
various labor groups regarding the Access Control Security Act, to 
ensure that they are as thoughtful and considerate of all stakeholder 
issues as possible?
    Answer. The Transportation Security Administration will be happy to 
provide technical drafting assistance to Congressional Members, or more 
formal comments to address issues with these pieces of legislation in 
our efforts to ensure that they are thoughtful and considerate of all 
stakeholder concerns and perspectives.
    Question 11. During the 113th Session, Representative Julia 
Brownley introduced the Honoring Our Fallen TSA Heroes Act, a bill that 
would provide public safety officer death and education benefits to the 
families of TSOs who are killed or badly disabled in the line of duty. 
TSOs would join a long line of public servants, including police 
officers, fire fighters and Emergency Medical Technicians who are 
eligible for the benefits. Public safety officer benefits serve as a 
recruitment tool for positions that protect the public, and allow those 
who answer the call of duty peace of mind that their loved ones will be 
taken care of if they are killed or disabled in the line of duty. Will 
TSA support granting TSOs public safety officer death and education 
benefits under the Honoring Our Fallen TSA Heroes Act?
    Answer. The Transportation Security Administration appreciates 
Congress' efforts to provide individual benefits for the family of 
Officer Hernandez, and would welcome the opportunity to work with the 
committee should similar legislation be re-introduced to expand the 
benefits to all Transportation Security Officers killed or injured in 
the line of duty.
    Question 12a. Administrator Neffenger, a past DHS-OIG report has 
proven that employee morale is at an all-time low and has been 
described as ``dismal'' for TSA. It was also noted that this low 
employee morale has been possibly impacting the functionality of TSA's 
operations.
    What steps do you plan to take to improve employee morale and 
employee relations within TSA?
    Answer. In my experience, strong and positive morale results 
directly from a positive leadership approach where leaders care about 
what matters to those we lead. Successful leaders have an awareness of 
what compels employees to commit their talents, energy, and effort to 
any endeavor. In my view, regardless of their generation, what 
motivates a workforce is for employees to know that their job and their 
contributions matter, that the work is meaningful, and that each 
employee can provide value and make a difference. Thus, it will be my 
intent to ensure that each member of TSA has a clear, well-defined 
purpose, that the employees know the importance of their mission, that 
they are trained and empowered to perform their duties, that they are 
valued and supported in doing that mission, and that leadership 
provides equitable and consistent accountability, at all levels, as 
well as appropriate recognition for performance.
    Another significant component of morale and performance is the role 
that leaders play, especially in recognizing the challenges of the day-
to-day work, and in responding to those challenges. Leaders must create 
opportunities to listen, to understand workforce challenges as seen 
from the employees' perspective. Leaders must also act on the concerns 
raised, both to advance the mission and to support employees in 
executing their duties. This can take the form of new training, tools, 
and procedures or it can be visible through demonstrated support from 
management in acknowledgement and recognition of the difficulty in 
executing a no-fail mission.
    In addition, TSA is taking several steps to improve employee morale 
and employee relations within the agency:
  <bullet> Enhanced Training Support:
    <bullet> The Essentials of Leading Screening Operations and 
            Essentials of Supervising Screening Operations training for 
            Lead and Supervisory Transportation Security Officers were 
            launched to improve leadership capabilities on the front 
            line.
    <bullet> A new web-based training course is being developed for 
            supervisors and managers that addresses the expectations 
            for employee engagement at TSA, and the specific steps that 
            TSA supervisors in different roles can take to improve 
            their own engagement efforts.
  <bullet> Increased Communication and Transparency:
    <bullet> The TSA Office of Security Operations launched the 
            Operations Network for Employees, which has several phases 
            that are focused on opening communication channels, 
            fostering collaborative and productive working 
            relationships, and introducing employees to new employment 
            opportunities and skill development.
    <bullet> More time for airport shift briefings has been added to 
            the staffing model to encourage consistent communication to 
            front-line employees at the start of each shift.
    <bullet> Recent changes were made to increase transparency 
            regarding the distribution process for screening workforce 
            performance awards and mitigate the impact of differences 
            in performance ratings across the Nation.
    <bullet> TSA is launching an engagement tool kit with resources, 
            information, and best practices for addressing areas of low 
            employee satisfaction such as employee development, 
            recognition, and communication. The release of this tool 
            kit is being timed with the release of 2015 Federal 
            Employee Viewpoint Survey results.
    <bullet> TSA created a learning, engagement, and career development 
            iShare portal called Success U to give employees the 
            information and resources necessary to build their skills. 
            Nearly 50,000 unique employees visited the site in its 
            first year of operation.
    <bullet> TSA launched a blog called ``LEAD!'' targeted towards mid- 
            and senior-level leaders to stress the importance of 
            communication, collaboration, and motivation, and to 
            provide examples of good engagement practices.
    <bullet> TSA has created a series of Workforce Engagement (WE) 
            initiatives. The acronym WE is a dual-purpose branding 
            mechanism, which seeks to further develop TSA's commitment 
            to workforce engagement, and emphasizes that we are ``all 
            in this agency together,'' and working hard to continuously 
            improve.
  <bullet> Career Development:
    <bullet> The TSA Mentoring Program was implemented to provide 
            interested employees with mentors who can provide career 
            coaching and other support; as of September 2, 2015, over 
            2,460 employees from 285 program offices have participated.
  <bullet> The Office of Law Enforcement/Federal Air Marshal Service 
        Career Track Program was developed to provide tools and 
        resources to promote career exploration and self-assessment.
  <bullet> TSA improved its Leadership Education Program to include 
        eligibility for lower-banded employees, and expanded the course 
        offerings to prestigious universities around the country in 
        order to make the program more accessible, effective, and 
        relevant.
  <bullet> TSA also improved its Leadership Development Programs to 
        include eligibility for lower-banded employees, partnership 
        with Academic Institutions to provide academic learning and 
        Strengths-Based Leadership Assessments, and reduction in 
        program completion time frames to increase throughput. TSA's 
        Leadership Development Programs have been aligned under the 
        Office of Personnel Management's Executive Core Qualifications 
        and the underpinning competencies to achieve greater 
        standardization across the DHS Leadership Framework and the 
        Federal Government.
    Question 12b. Based on surveys and feedback from its employees, has 
the agency noted any improvements?
    Answer. While the Federal Employee Viewpoint Survey ratings related 
to morale have not indicated significant change in recent years, TSA 
remains confident that on-going initiatives and efforts under 
development will yield a positive impact on employee morale in upcoming 
surveys.
    Question 13. On Monday, the Securing Expedited Screening Act passed 
out of the House and requires that TSA only grant expedited screening 
to passengers who have been previously vetted, and not through random 
selection, such as that used in the Managed Inclusion (MI) Program. 
Please detail for us your thoughts on expedited screening overall, as 
well as your thoughts on the Managed Inclusion program, because the 
security effectiveness of MI has been called into question by numerous 
GAO and OIG reports.
    Answer. Expedited screening is a product of the Transportation 
Security Administration's (TSA) evolution from a one-size-fits-all 
screening approach to a risk-based security concept. Managed Inclusion 
(MI), first and foremost, is a process in which TSA applies additional 
security measures prior to processing through a screening checkpoint by 
utilizing additional layers of security such as explosives detection 
(through Passenger Screening Canines or Explosives Trace Detection 
(ETD)), and observation from Behavior Detection Officers. Up until 
recently, there were two types of MI operating procedures. MI-1 
employed the use of canines while MI-2 employed the random use of ETD. 
With the application of these security layers, TSA has the capability 
to conduct a real-time threat assessment of standard (unknown) 
passengers. If the standard passenger clears the additional security 
measures then they would be provided access to expedited screening 
lanes.
    Since the expansion of TSA PreCheck<SUP>TM</SUP> and initiation of 
MI operations in 2013, TSA's methodology has always centered around the 
reduction of MI utilization in parallel with the increase in TSA 
PreCheck<SUP>TM</SUP> travel population. In line with the methodology 
established in 2013, TSA is currently reviewing expedited screening 
concepts with the intent of reducing expedited screening for travelers 
who have not completed a full biographic and biometric security threat 
assessment. Therefore, over the course of the past year, TSA has 
reduced the reliance on MI by approximately 80 percent (high of 16.1 
percent over New Year's 2015 to approximately 3 percent today). A major 
contributor to the reduction of MI utilization was the reduction plan 
and ultimately the elimination of MI-2 on September 12, 2015. The 
decision to maintain MI-1 while eliminating MI-2 was mainly in part due 
to the explosives trace capability, as canines provide a 100 percent 
screening capability of the passenger queue, whereas the random use of 
ETD does not.
    Question 14. There is currently no permanent solution for military 
checked baggage originating from Air Mobility Command (AMC) Patriot 
Express channel mission flights and the committee believes such an 
effort is a critical layer of security to maintain safety for all 
passengers who utilize these airports such as with Baltimore/Washington 
International Thurgood Marshall Airport (BWI) and Seattle-Tacoma 
International Airport (SeaTac) as their home airport, or as a 
connection to their final destination. There are no current regulations 
that require the Transportation Security Administration (TSA) to screen 
checked baggage from such military flights but it is our understanding 
that the Department of Defense, namely US TRANSCOM, is in great support 
of making their aircraft, and subsequently commercial airliners that 
will receive this baggage, more secure. Can you give us the status of 
working on a permanent solution for these airports to make sure there 
is a permanent solution in the near future for the screening of baggage 
being placed on aircraft?
    Answer. The Transportation Security Administration (TSA) has and 
will continue to coordinate with the U.S. Transportation Command 
(USTRANSCOM) to ensure the safety of their flight operations. Every 
airport operation is unique; the favorable solution for screening 
USTRANSCOM checked luggage is via an airport-owned baggage in-line 
system. For example, the processing of Seattle-Tacoma International 
Airport's checked luggage via an in-line system poses a minimal to zero 
cost for USTRANSCOM. The cost is dependent on existing commercial 
flight schedules out of the specific baggage in-line system.
    At the request of USTRANSCOM, TSA recently provided potential 
options for a permanent operational process at Baltimore/Washington 
International Thurgood Marshall Airport (BWI). USTRANSCOM is 
coordinating with the BWI Airport Authority on the best solution to 
ensure their operations are factored into the approved design for their 
international in-line system. Currently, TSA processes USTRANSCOM 
checked luggage at BWI using a lobby-based solution, which consists of 
screening checked luggage using Explosives Detection Systems (EDS) that 
are positioned at the ticket counter level of an airport, and requires 
manual labor to inject and remove bags through the EDS. Currently, TSA 
funds and staffs the resources required to process USTRANSCOM flights 
out of BWI.
    TSA is committed to coordinating efforts between USTRANSCOM and the 
associated airport authority to efficiently use established resources.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
